la
APPENDIX A
UNITED STATES COURT
OF APPEALS FOR THE
NINTH CIRCUIT

FILED
APR 27 2020
MOLLY C.
DWYER,
CLERK
U.S. COURT
OF APPEALS

No. 18-56269
JAIRO SEQUEIRA, A
Citizen of the United
States of America,
Plaintiff - Appellant,
v.
THE REPUBLIC OF
NICARAGUA,
a foreign County; et al.,

D.C. No. 2:13-cv04332-DMG-FFM
U.S. District Court
for Central
California,
Los Angeles
MANDATE

Defendants-Appellees

The judgment of this Court, entered January 28, 2020,
takes effect this date. This constitutes the formal
mandate of this Court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Quy Le
Deputy Clerk
Ninth Circuit Rule 27-7

>»

2a
APPENDIX B
UNITED STATES COURT
OF APPEALS FOR THE
NINTH CIRCUIT

FILED
APR 17 2020
MOLLY C.
DWYER,
CLERK
U.S. COURT
OF APPEALS

No. 18-56269
JAIRO SEQUEIRA, A
Citizen of the United
States of America,
Plaintiff - Appellant,
v.
THE REPUBLIC OF
NICARAGUA,
a foreign County; et al.,

D.C. No. 2:13-cv04332-DMG-FFM
U.S. District Court
for Central
California,
Los Angeles
ORDER

Defendants-Appellees

Before: FARRIS, D.W. NELSON, and SILVERMAN,
Circuit Judges.
The members of the panel that decided
this case voted unanimously to deny the
petition for rehearing and recommended
denial of the petition for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc and no active judge has requested a

J

3a
vote on whether to rehear the matter en banc. (Fed.R.
App. P. 35.)
The petition for rehearing and the petition for rehearing
en banc are
DENIED.

4a
APPENDIX C
NOT FOR PUBLICATION
UNITED STATES COURT
OF APPEALS FOR THE
NINTH CIRCUIT

FILED
JAN 28 2020
MOLLY C.
DWYER,
CLERK
U.S. COURT
OF APPEALS

No. 18-56269
JAIRO SEQUEIRA, A
Citizen of the United
States of America,
Plaintiff - Appellant,
v.
THE REPUBLIC OF
NICARAGUA,
a foreign County; et al.,

D.C. No. 2:13-cv04332-DMG-FFM
U.S. District Court
for Central
California,
Los Angeles
ORDER

Defendants-Appellees

Appeal from the United States District Court for the
Central District of California
Dolly M. Gee, District Judge, Presiding
Submitted January 28, 2020**
Before: FARRIS, D.W. NELSON, and SILVERMAN,
Circuit Judges.

5a
Jairo Sequeira appeals pro se from the district court's
order dismissing his action against the Republic of
Nicaragua, the City of Chinandega, and the City of El
Viejo (the "sovereign defendants") for lack of subject
matter jurisdiction. We have jurisdiction under 28 U.S.C.
§ 1291. We review de novo subject matter jurisdiction
under the Foreign Sovereign Immunities Act
("FSIA"). Phaneuf v. Republic of Indonesia,106 F.3d 302,
304-05 (9th Cir. 1997). We affirm.
The district court properly dismissed Sequeira's action
against the sovereign defendants for lack of subject
matter jurisdiction because Sequeira failed to meet his
burden of production to establish an exception to the
sovereign defendants' immunity under the FSIA. See 28
U.S.C. § 1605(a)(l)-(3),(5); see also Terenkian u. Republic
of Iraq, 694 F.3d 1122, 1131 (9th Cir. 2012) (setting forth
burden-shifting framework of the FSIA when a defendant
makes a factual jurisdictional challenge); In re Republic of
Philippines,_309 F.3d 1143, 1149 (9th Cir. 2002) (a court
may only exercise subject matter jurisdiction over a
foreign and their agents or instrumentalities when one of
the exceptions to immunity under the FSIA applies). In
doing so, the district court properly took evidence and
resolved factual disputes. See Bolivarian Republic of
Venezuela v. Helmerich & Payne Intern. Drilling Co.,131
S. Ct. 1312, 1316-17 (2017) ("[W]here jurisdictional
questions turn upon further factual development, the trial
judge may take evidence and resolve relevant factual
disputes."). Sequeira's contentions that the district court
applied the incorrect standard in determining whether
the FSIA immunity exceptions applied is unpersuasive,
and we reject as unsupported by the record his
contentions that the district court erred in its
consideration of the parties' declarations.-

[**1 The panel unanimously concludes this case is suitable
for decision without oral argument. See Fed. R. App. P.
34(a)(2).
1*1 This disposition is not appropriate for publication and
is not precedent except as provided by Ninth Circuit Rule

6a
The district court's order the granting sovereign
defendants' motion to dismiss did not violate the law of
the case doctrine because this court's dismissal of
Sequeira's previous action against the sovereign
defendants did not decide the issue of whether subject
matter jurisdiction existed. See Ctr. for Biological
Diversity v. Salazar, 706 F.3d 1085, 1090 (9th Cir.
2013) (explaining that the law of the case doctrine
pertains to reconsideration of "an issue that has already
been decided by the same court or a higher court in the
same case" (citation and internal quotation marks
omitted)).
The district court properly considered the sovereign
defendants' motion to dismiss for lack of subject matter
jurisdiction. See In re Apple Iphone Antitrust Litig., 846
F.3d 313, 319 (9th Cir. 2017) ("A Rule 12(b)(1) motion to
dismiss for lack of subject matter jurisdiction . . . may be
made at any time."); Fed. R. Civ. P. 12(h)(3) ("If the court
determines at any time that it lacks subject-matter
jurisdiction, the court must dismiss the action.").
The district court did not abuse its discretion in denying
Sequeira's motion for reconsideration of the denial of his
request for jurisdictional discovery because Sequeira's
motion restated the arguments made in support of his
original motion without establishing any basis for
reconsideration. See Sch. Dist. No. 1J, Multnomah Cty.,
Or. v. ACandS, Inc., 5 F.3d 1255, 1262-63 (9th Cir.
1993) (setting forth standard of review and grounds for
reconsideration under Fed. R. Civ. P. 60(b)); C.D. Cal.
Local Rule 7-18(c) (setting forth grounds for
reconsideration under local rules); Hinton v. Pac.
Enters., 5 F.3d 391, 395 (9th Cir. 1993) (setting forth
standard of review for compliance with local rules); see
also Packsys, S.A. de C. V. v. Exportadora de Sal, S.A. de
C.V.,_899 F.3d 1081, 1094 (9th Cir. 2018)(affirming denial
of discovery request were plaintiff did not identify
"specific facts crucial to an immunity determination" that
it wished to verify (citation omitted)).

36-3.

k

7a
The district court did not abuse its discretion by denying
Sequeira's motion for sanctions because Sequeira failed to
satisfy the requirements of Federal Rule of Civil
Procedure 11. See Winterrowd v. Am. Gen. Annuity Ins.
Co., 556 F.3d 815, 819, 826 (9th Cir. 2009) (setting forth
standard of review and explaining that a failure to comply
with the safe harbor provision under Fed. R. Civ. P. 11(c)
precludes awarding sanctions); Holgate v. Baldwin, 42b
F.3d 671, 678 (9th Cir. 2005) (safe harbor provision is
strictly enforced).
We do not consider matters not specifically and distinctly
raised and argued in the opening brief or arguments and
allegations raised for the first time on appeal. See Padgett
v. Wright,_587 F.3d 983, 985 n.2 (9th Cir. 2009).
AFFIRMED.

**.

8a
APPENDIX D
UNITED STATES DISTRICT COURT CENTRAL
DISTRICT OF CALIFORNIA
CIVIL MINUTES—GENERAL
Case No.
Date

CV 13-4332-DMG (FFMx)
August 24, 2018

Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 1 of 16
Present: The Honorable DOLLY M. GEE, UNITED
STATES DISTRICT JUDGE
KANE TIEN
Deputy Clerk

NOT REPORTED
Court Reporter

Attorneys Present for Plaintiff(s)
Attorneys Present for Defendant(s)

None Present
None Present

Proceedings: IN CHAMBERS - ORDER RE
DEFENDANTS’ MOTION TO DISMISS
THIRD AMENDED COMPLAINT;
PLAINTIFFS MOTION FOR
RECONSIDERATION, MOTION TO CERTIFY
ORDER FOR INTERLOCUTORY REVIEW,
REQUEST TO STRIKE, MOTION TO STRIKE, AND
MOTION FOR RULE 11 SANCTIONS [138,157,160,
163, 188]
I.
PROCEDURAL BACKGROUND
On August 22, 2014, pro se Plaintiff Jairo Sequeira filed
his Second Amended Complaint (“SAC”) against
Defendants the Republic of Nicaragua (“Nicaragua”); the
City of Chinandega; the City of El Viejo; and several
individuals. [Doc. # 97.] On remand from the Ninth
Circuit, the Court dismissed Sequeira’s SAC in its
November 20, 2017 Order for failure to comply with

\

9a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 1 of 16 (Continue)
Federal Rule of Civil Procedure 8, but held that the SAC
survived Defendants’ facial challenge to subject matter
jurisdiction under the Foreign Sovereign Immunities
Act’s (“FSIA”), 28 U.S.C. § 1602 et seq., waiver and
commercial activity exceptions. See Order re SAC at 7-11,
14-15 [Doc. #119].!
On January 31, 2018, Sequeira filed his Third
Amended Complaint (“TAC”) against Nicaragua,
Chinandega, and El Viejo. [Doc. # 132.] The TAC
asserts the following claims: (1) “unlawful
expropriation of personal and real estate property
(illegal taking)”; (2) conversion; (3) restitution (unjust
enrichment); (4) torture; (5) “cruel, inhuman, or
degrading treatment”; (6) “arbitrary detention”; (7)
kidnapping; (8) assault and battery; (9) false
imprisonment and false arrest; (10) trespass to land;
(11) trespass to chattels; (12) intentional interference
with prospective economic advantage and business
relationships; (13) negligent interference with
prospective economic advantage and business
relationships; (14) breach of express written, oral and
implied in fact contract; (15) breach of implied
covenant of good faith and fair dealing; (16) intentional
infliction of emotional distress; and (17) negligent
infliction of emotional distress. See TAC at 1—2.

1 All page references herein are to page numbers inserted
by the CM/ECF filing system.

10a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 2 of 16
On March 8, 2018, Defendants Republic of Nicaragua,
City of Chinandega, and City of El Viejo filed a motion to
dismiss the TAC, asserting a factual challenge to this
Court’s subject matter jurisdiction. [Doc. # 138.] On
March 30, 2018, April 2, 2018, and April 5, 2018, Sequeira
filed numerous objections, a request to strike, and a
motion to strike various exhibits produced by Defendants
in support of their motion. 2 [Doc. ## 146-56, 163, 164.]
On April 13, 2018, Sequeira filed his opposition to
Defendants’ motion (“Opp.”). [Doc. # 170.] On May 11,
2018, Defendants replied (“Reply”). [Doc. # 181.]
On March 19, 2018, Sequeira filed an ex parte
application for an extension of time to oppose Defendants’
motion to dismiss or to stay proceedings to permit
jurisdictional discovery. Doc. # 139, 141.] On March 23,
2018, the Court granted an extension of time, but denied
Sequeira’s request for a stay. [Doc. # 145.] On April 2,
2018, Sequeira moved for reconsideration of the Court’s
order denying Sequeira’s request for a stay or, in the
alternative, to certify the order for interlocutory review.
[Doc. ## 157, 160.] Defendants opposed both motions on
April 20,
2018. [Doc. ## 174, 175.] Sequeira did not reply.
On June 11, 2018, Sequeira filed a motion for Rule 11
sanctions, asserting that Defendants offered falsified
evidence in support of their motion to dismiss. [Doc. #
188.] On June 29, 2018, Defendants filed an opposition
[Doc. # 191], and Sequeira filed his reply on July 6, 2018.
[Doc. # 192.]
2 Specifically, Sequeira filed eleven separate evidentiary
objections, a Request to Strike, and a Motion to Strike.
The Court will rule on the evidentiary objections and
motions as the challenged evidence is relevant to this
decision. To the extent the Court does not rely on the
challenged evidence, the objections are OVERRULED as
moot and the motion to strike is DENIED as moot.

•

I

11a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 2 of 16 (Continue)
II.
FACTUAL BACKGROUND
Jairo Sequeira is an American citizen who resides in
California. TAC If 31. Sequeira is the president of Smith
Modular Construction Systems, Inc. (“Smith, Inc.”) and its
subsidiary Smith S.A. (“Smith Company”). Id. Tf 79.
Smith, Inc. and Smith Company constructed housing
panels in Sequeira’s processing plant located in El Viejo,
Nicaragua (“Multi-Processing Plant”). Id. Tf^f 11, 79.
Sequeira also owned farmland in Cosiguina, Nicaragua
(the “Cosiguina” property) and rented a house in
Managua (the “Managua” property), where he stored a
number of personal items. Id. ^Hf 5, 20.
According to Sequeira, on November 10, 2006, the
mayor of El Viejo worked with the Nicaraguan national
police to take possession of the eastern half of the MultiProcessing Plant. Id. t 12. After several months of
litigation, Sequeira and Defendants agreed to settle
Sequeira’s claims over the land on May 29, 2007. Id. U 13.
In that settlement, Defendants allegedly agreed to pay
Sequeira $2.5 million. Id. If 84; but see Sequeira Decl., Ex.
Y at 1 (only listing El Viejo and
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 3 of 16
Sequeira as parties to the settlement) [Doc. # 180]. The
payments were to be deposited in Sequeira’s California
bank account. Id. Sometime before November 2012,
Defendants seized the western half of the MultiProcessing Plant as well. Id. f 14.
On September 23, 2010, the mayor of El Viejo chased
Sequeira off the Cosiguina property with the assistance of
the El Viejo and Chinandega branches of the Nicaraguan
national police and took possession of the land. Id. ff 7-9.
In 2012, the Nicaraguan national police allegedly took

12a
Title Jairo Sequeira v. The Republic of Nicaragua,
Page 3 of 16 (Continue)
et al.
Sequeira’s personal property on the Managua property.
Id. If 21.
After Defendants seized the eastern half of the MultiProcessing Plant, Defendants allegedly began to solicit
funds from United States non-profit organizations and
private investors, including United States baseball
players and teams. Id. *f 66. Defendants also allegedly
acquired additional funds at an event in California called
“Expo Nica.” Id. If 72. Sequeira alleged that those
funds were used to build a stadium and houses on the
Multi-Processing Plant. Id. f^f 67, 72. Some of those
houses were purchased with money sent to Nicaragua by
individuals with family members living and working in
the United States. Id. f 89.
Sequeira also claims that Defendants began operating
and managing the western half of the Multi-Processing
Plant and Cosiguina properties for personal gain in 2012.
Id. 1H| 10, 14. Specifically, Sequeira alleges that
Defendants sold cattle raised on the Cosiguina property
as meat products in the United States. Id. 1f1f 59-60.
Defendants also allegedly collected rent from
American tenants, such as Codemet, who rents several
warehouses on the western side of the
Multi-Processing Plant. Id. ^f 92.
III.
LEGAL STANDARD
As a threshold matter, a court adjudicating a claim
against a foreign state must determine whether the FSIA
provides subject matter jurisdiction over the claim.
Siderman de Blake v. Republic of Argentina, 965 F.2d
699, 706 (9th Cir. 1992). The FSIA is the sole basis for
obtaining jurisdiction over a foreign state in federal
courts. Argentine Republic v. Amerada Hess Shipping
Corp., 488 U.S. 428, 434 (1989). “A federal court lacks
subject matter jurisdiction over a claim against a foreign

13a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 3 of 16 (Continue)
state unless the claim falls within an exception to
immunity under the FSIA.”Siderman, 965 F.2d at 706.
Where a defendant brings a factual attack on subject
matter jurisdiction under Federal Rule of Civil Procedure
12(b)(1), “the defendant may introduce testimony,
affidavits, or other evidence to ‘dispute[] the truth of the
allegations that, by themselves, would otherwise invoke
federal jurisdiction.” Terenkian v. Republic of Iraq, 694
F.3d 1122, 1131 (9th Cir. 2012) (quoting Safe Air for
Everyone v. Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004)).
Thus, “no presumptive truthfulness attaches to the
plaintiffs allegations.” Doe v. Holy See, 557 F.3d 1066,
1073 (9th Cir.
Title Jairo Sequeira v. The Republic of Nicaragua,
Page 4 of 16
et al.
2009) (quoting Roberts v. Corrothers, 812 F.2d 1173, 1177
(9th Cir. 1987)). Instead, the plaintiff must first offer
proof that one of the FSIA exemptions applies. Terenkian,
694 F.3d at 1131 (quoting Siderman, 965 F.2d at 708 n.9);
see also Barapind v. Gov’t of the Republic of India, 844
F.3d 824, 830-32 (9th Cir. 2016) (plaintiff failed to prove
that exception to sovereign immunity applied). Then, “the
defendant bears the burden of proving by a
preponderance of the evidence that the exception to
sovereign immunity does not apply.” Terenkian, 694 F.3d
at 1131. Even if there are material facts in dispute, the
trial court “may still evaluate the merits of the
jurisdictional claims.” Id.
IV.
DISCUSSION
Defendants are presumptively entitled to immunity
because Nicaragua is a foreign state and both Chinandega
and El Viejo are political subdivisions of Nicaragua. See
TAC Iff 32, 35, 38; see also 28 U.S.C. § 1604 (“Subject to
existing international agreements to which the United

* '%

14a
Title Jairo Sequeira v. The Republic of Nicaragua,
Page 4 of 16 (Continue)
et al.
States is a party at the time of enactment of this Act a
foreign state shall be immune from the jurisdiction of the
Courts of the United States and the States except as
provided in sections 1605 and 1607 of this chapter.”); id.
at § 1603 (defining “foreign state” for most purposes as
including “a political subdivision of a foreign state or an
agency or an instrumentality of a foreign state”).
Sequeira contends, however, that the Court has
jurisdiction under the waiver and commercial
activity exceptions to the FSIA. See id.
43-94.
Defendants raise a factual challenge to jurisdiction
under the FSIA and present evidence purporting to prove
that the waiver and commercial activity FSIA exceptions
do not apply. See Mot. at 1. They also contend that the
TAC should be dismissed for improper venue because the
FSIA venue statute, 28 U.S.C. § 1391(f), requires
Sequeira to bring his action in the District Court
for the District of Columbia. See id. at 24. The Court
considers each of these contentions in turn.
A. Waiver Exception
As explained in the Court’s Order re SAC, a foreign
state can waive sovereign immunity “either explicitly or
by implication.” 28 U.S.C. § 1605(a)(1). “The FSIA’s
waiver exception ‘is narrowly construed.’” Siderman, 965
F.2d at 720 (quoting Joseph v. Office of the Consulate
Gen.
of Nigeria, 830 F.2d 1018, 1022 (9th Cir. 1987)). Thus, an
explicit waiver in the FSIA context must be “clear and
unambiguous.” Capital Ventures Int’l v. Republic of
Argentina, 552 F.3d 289, 293 (2d Cir. 2009); see also
Anderman v. Fed. Republic of Austria, 256 F. Supp. 2d
1098, 1105— 06 (C.D. Cal. 2003) (“Explicit waivers may be
ascertained simply by reading the document in which an
explicit waiver is purportedly made.”). Implied waivers
are normally found in three situations: “(1) a foreign state
has agreed to arbitration in another country; (2) a foreign
state has agreed that a contract is governed by the law of

15a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 4 of 16 (Continue)
a particular country; and (3) a foreign state has
filed a responsive pleading in a case without raising the
defense of sovereign immunity.”
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 5 of 16
Barapind, 844 F.3d 824, 839 (9th Cir. 2016) (quoting In re
Republic of Philippines, 309 F.3d 1143, 1151 (9th Cir.
2002)). Ultimately, “the essential inquiry in written
agreement cases is whether a sovereign contemplated the
involvement of United States courts in the affair in issue.”
Siderman, 965 F.2d at 721.
Sequeira contends that Defendants waived sovereign
immunity by entering into a private written contract (the
“Agreement”), which provides that:
In the event of the breach of this agreement, [the mayor
of El Viejo] on behalf of the Municipality of El Viejo .. * J
municipality in the Department of Chinandega, this
authority expressly waives jurisdiction and agrees to
submit to the jurisdiction chosen by Mr. Sequeira, who is
entirely free to choose the jurisdiction of California,
United States, or any other venue deemed convenient to
settle civil or criminal disputes, or disagreements over
damages or disturbance of possession of the property
described above. This agreement will be governed by the
Code of Commerce of Nicaragua, Sections 8 and 10, which
are in accordance with the laws of the United States on
Commerce, as well as international provisions of the
Universal Code of commerce [sic].
Rizo Decl., Ex. 5 (“Agreement”) [Doc. # 138-6]; see also
Sequeira Decl., Ex. Y [Doc. # 180-1].
First, Defendants contend that the Agreement is
fraudulent because El Viejo has no record of the contract
or the required Municipal Council approval of the

16a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 5 of 16 (Continue)
contract. See Mot. at 14-15. Defendants provide two
declarations—one from the Municipal Council Secretary
Jose Adrian Arias Ruiz and another from the Mayor of El
Viejo, Maria del Transito Guevara Rodas—in support
of their contention. See Arias Decl. If 4 [Doc. # 138-18];
Guevara Decl. If 16 [Doc. # 138-22], According to Arias,
Nicaraguan law requires the Municipal Council to
approve and maintain a record of contracts such as the
Agreement. Arias Decl. ]Hf 5-6. Arias and Guevara could
not find any record of the Agreement in municipal records
and council minutes. See Arias Decl. Tft 7-13; Guevara
Decl. ]f 16.
Sequeira objects to both declarations, arguing that the
declarations lack personal knowledge, foundation, and are
unduly speculative, prejudicial, or constitute inadmissible
hearsay. Sequeira also claims that both declarations are
unqualified expert opinion. See generally Arias Obj. [Doc.
# 146]; Guevara Obj. [Doc. # 147], Sequeira’s objections
are meritless. Federal Rule of Evidence 803(10) permits
testimony “that a diligent search failed to disclose a public
record or statement if. . . the testimony or certification is
admitted to prove that... a matter did not occur or exist,
if a public office regularly kept a record or statement for a
matter of that kind . . . .” Arias and Guevara’s
declarations provide such testimony. See also Fed. R. Civ.
P. 44(b); United States v. Lee, 589 F.2d 980, 987 (9th Cir.
1979) (negative records admissible under Fed. R. Civ. P.
44 or Fed. R. Evid. 803(10)); Zhangling Jiang v. Holder,
658 F.3d 1118, 1120 (9th Cir. 2011).
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 6 of 16
Moreover, to the extent Sequeira objects to Arias's recitation
of Nicaraguan law, the Court "may consider any relevant
material or source, including testimony, whether or not...
admissible under the Federal Rules of Evidence" to determine
an issue of foreign law. Fed. R. Civ. P. 44.1. Accordingly, the
Court OVERRULES Sequeira's objections.

,A

17a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 6 of 16 (Continue)
Second, Defendants argue that even if the Agreement is
not fraudulent, it is void because its notarization fails to
comply with applicable law. Under Nicaraguan law,
contracts that purport to be authorized by a notary public
are considered public documents. See Rizo Decl., Ex. 3 at
17 (translation of Nicar. Civ. Code § 2364) [Doc. No. 1386]. 3 Public documents are void ab initio in their entirety
if notarized by a notary public who is “within the fourth
degree of consanguinity or second degree of affinity”—i.e.,
a spouse, parents- or children-in-law, or individuals
closely related by blood—with a personally interested
party. See id. (translation of Nicar. Civil Code § 2372).
Section 2372 has an exception: notaries public can
notarize public documents in which a closely related
family member is a signatory if “the parties are interested
parties solely because they possess a holding in
corporations, or are managers or directors of the same . . .
.” Id.; see also Illescas Decl. If 131 [Doc. # 169].

3 Sequeira also objects to the Rizo Declaration, arguing that it
constitutes impermissible “ultimate issue”
opinion. See generally Rizo Obj. [Doc. # 156]. As mentioned
above, however, Rule 44.1 permits the Court to
consider "any relevant material or source, including testimony,
whether or not... admissible" to determine an issue
of foreign law. Fed. R. Civ. P. 44.1. Moreover, Rizo appears to be
a qualified expert in Nicaraguan law given her
decades-long experience as a Nicaraguan attorney. See Rizo
Decl. at 1. In any event, Sequeira's own expert witness,
Arnoldo Illescas Ibarra, relies on substantially similar
translations of Nicaraguan law. See, e.g., Illescas Decl. If 131
[Doc. # 169]. The Court therefore OVERRULES Sequeira's
objections.

18a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 6 of 16 (Continue)
Nicaraguan law also requires public documents to satisfy all
formalities required for their validity—failure to do so voids
the entire document. See id. (translation of Nicar. Civ. Code
§ 2371); see also Rizo Decl., Ex. 4. at 28 (translation of Nicar.
Notarial Code § 28). As relevant here, the notary's introduction
to the contract must "contain and express ... whether the
parties are acting on their own behalf or in representation of [a
corporation]" by citing the corporation’s articles of
incorporation and any other document necessary to establish
representation. See id. at 27 (translation of Nicar. Notarial
Code §23).
Here, the Agreement was notarized by Horacio Ramon
Sequeira Argenal. See Rizo Decl., Ex. 5 at 34, 39;
Sequeira Decl., Ex. Y at 69, 73. Horacio4 and Sequeira are
brothers—the second degree of consanguinity. See Rizo
Decl., Ex. 7 (Horacio’s birth certificate); id., Ex. 8
(Sequeira’s birth certificate).5 Thus, the Agreement is
void ab initio unless the Section 2372 exception applies.

4 The Court refers to Horacio Sequeira by his first name to
distinguish him from Plaintiff.
5 Sequeira objects to Rizo's conclusion that he and Horacio are
at the second degree of consanguinity. See Rizo Obj. If 24.
Sequeira merely repeats generic objections without specific
analysis. Sequeira does not dispute that he and Horacio are
brothers. See Opp. at 11. The Court OVERRULES Sequeira's
objection.

19a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 7 of 16
The exception does not apply here. Sequeira entered into the
Agreement "on his own behalf and on behalf of [Smith
Company.]” Rizo Decl., Ex. 5 at 36; see also Sequeira Decl., Ex.
Y at 64 (Sequeira "appears before [Horacio] in his double
capacity in his own name... and legal representative of [Smith,
Inc. and Smith Company.]"). Thus, Sequeira is not an interested
party "solely because [he] possesses] a holding in
corporations.” Rizo Decl., Ex. 3 at 18 (emphasis added). Rather,
Sequeira signed the Agreement in order to assert his partial,
personal ownership of the Multi-Processing Plant. See Rizo
Decl., Ex. 5 at 36 ("[Smith Company] and Mr. Sequeira
are the owners and possessors of [the Multi-Processing
Plant]"); Sequeira Decl., Ex. Y at 65 ("[Smith S.A.] and Mr.
Sequeira himself are owners in dominion and possession of
[the Multi- Processing Plant]").
In addition, the Agreement does not meet the
requirements of Notarial Code § 28 because
Horacio did not cite the Smith companies’ articles of
incorporation to establish that Sequeira was authorized to
represent those companies. Rizo Decl., Ex. 4 at 28.
Rather, Horacio merely referenced a “document produced
by [Sequeira].” See Rizo Decl., Ex. 5 at 36.6

6 The translation of the Agreement provided by Sequeira
does not reference any documents purporting to
establish representation on behalf of the Smith
companies. See Sequeira Decl., Ex. Y at 64.

20a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 7 of 16 (Continue)
Thus, the Agreement is void ab initio. Because it is an invalid
contract, the Agreement cannot act as an express or implied
waiver of sovereign immunity under the FSIA.7 See Terenkian,
694 F.3d at 1131. Therefore, the waiver exception does not
apply.

7 Additionally, as the Court briefly explained in its Order
re SAC, Sequeira still has not shown that the Agreement,
if it were valid, waives Nicaragua and Chinandega’s
sovereign immunity. See Order re SAC at 8. The
Agreement states: “Mr. Moncada on behalf of the
Municipality of El Viejo (City of El Viejo), and in his
capacity as Mayor of El Viejo, municipality in the
Department of Chinandega, this authority expressly
waives jurisdiction . . . .” Rizo Decl., Ex. 5 at 39 (emphasis
added); see also Sequeira Decl., Ex. Y at 68. The
Agreement’s reference to “this authority” indicates that El
Viejo is the only Defendant, if any, bound by the alleged
waiver. Sequeira presents no evidence to support his
contention that the limited language of the Agreement
waives Nicaragua or Chinandega’s immunity. Moreover,
the fact that Nicaragua or Chinandega was allegedly
“aware” of the Agreement (see Opp. at 9)—an allegation
which Sequeira presents no evidence to support—is
insufficient to demonstrate that Nicaragua or
Chinandega contemplated the involvement of United
States courts. Compare Siderman, 965 F.2d at 722
(waiver found where Argentina “deliberately implicated”
United States courts by requesting court assistance in
serving papers on the plaintiff) with Blaxland v.
Commonwealth Dir. of Pub. Prosecutions, 323 F.3d 1198,
1206—07 (9th Cir. 2003) (no waiver where foreign
sovereign made no “direct request of [United States]
courts); Barapind, 844 F.3d at 831 (“not. . . reasonable to
assume India . .. contemplated that adjudication of
disputes would occur in a court of the United States
because the entirety of the conduct at issue . . . was
reasonably contemplated to occur only in India.”).

21a
Title Jairo Sequeira v. The Republic of Nicaragua,
Page 8 of 16
et al.
B. Commercial Activity Exception
“[A] state is immune from the jurisdiction of foreign
courts as to its sovereign or public acts (jure imperii), but
not as to those that are private or commercial in character
(jure gestionis).” Saudi Arabia v. Nelson, 507 U.S. 349,
359-60 (1993). Under the FSIA’s “commercial activity”
exception, a foreign state is not immune from jurisdiction
in any case “in which the action is based upon”: (1) “a
commercial activity carried on in the United States by a
foreign state”; (2) “an act performed in the United States
in connection with a commercial activity of the foreign
state elsewhere”; or (3) “an act outside the territory of the
United States in connection with a commercial activity of
the foreign state elsewhere and that act causes a direct
effect in the United States[.]” 28 U.S.C. §1605(a)(2).
As the name of the exception implies, plaintiffs
asserting jurisdiction under this exception must identify
some commercial activity conducted by the sovereign
defendant. The FSIA defines “commercial activity” to
mean “either a regular course of commercial conduct or a
particular commercial transaction or act.” 28 U.S.C. §
1603(d). It instructs courts to determine the commercial
character of an activity “by reference to the nature of the
course of conduct or particular transaction or act, rather
than by reference to its purpose.” Id. As to the meaning of
“commercial[,]” the Supreme Court has held that
“commercial activity under the FSIA refers to ‘only those
powers that can be exercised by private citizens, as
distinct from those powers peculiar to sovereigns.’”
Embassy of the Arab Republic of Egypt v. Lasheen, 603
F.3d 1166, 1170 (9th Cir. 2010) (quoting Nelson, 507 U.S.
at 360).
Sequeira contends that all three clauses apply. See TAC
THf 51-94. The Court will evaluate each clause seriatim.

» «

22a
Title Jairo Sequeira v. The Republic of Nicaragua,
Page 8 of 16 (Continue)
et al.
1. Clause One and Two
Under the first clause of the commercial activity
exception, 28 U.S.C. § 1605(a)(2), a foreign state is not
immune from jurisdiction in any case based upon “a
commercial activity carried on in the United States by the
foreign state.” The FSIA provides that [a] ‘commercial
activity carried on in the United States by a foreign state’
means commercial activity carried on by such state and
having substantial contact with the United States.” 28
U.S.C. § 1603(e). “Under this definition, the foreign state
need not engage in commercial activity in the United
States on a regular basis.” Siderman, 965 F.2d at 709.
“Instead, the critical inquiry is whether there is ‘a nexus
between the defendant’s commercial activity in the
United States and the plaintiffs grievance.’” Id. (quoting
Am. W. Airlines, Inc. v. GPA Grp., Ltd., 877 F.2d 793, 796
(9th Cir. 1989)). Courts must “zeroQ in on the core of [the]
suit: the . . . sovereign acts that actually injured
[plaintiff].” OBB Personenverkehr AG v. Sachs, 136 S. Ct.
390, 396 (2015).
Title Jairo Sequeira v. The Republic of Nicaragua,
Page 9 of 16
et al.
Clause two of the exception applies to cases that are
“based upon ... an act performed in the United States in
connection with a commercial activity of the foreign state
elsewhere.” See 28 U.S.C. § 1605(a)(2). “A plaintiff must
either demonstrate a causal connection between a
sovereign’s actions in the United States and those abroad
giving rise to the plaintiffs claims, or the sovereign’s acts
in the United States must themselves represent” the core
of the plaintiffs claims. Siderman, 965 F.2d at 709. 8
8. The full quote from Siderman states: “[a] plaintiff must
either demonstrate a causal connection between a
sovereign’s actions in the United States and those abroad
giving rise to the plaintiffs claims, or the sovereign’s acts

23a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 9 of 16 (Continue)
Here, Sequeira contends that jurisdiction under clauses
one and two of the commercial activity exception is “based
upon” three commercial acts: (1) selling Sequeira’s cattle
as meat products in the United States (see TAC
5863); (2) soliciting funds in the United States to build
a baseball stadium on the east side of the MultiProcessing Plant (see id.
65-70); and (3) soliciting
funds in the United States at Expo Nica to build houses
on the east side of the Multi- Processing Plant (see id.
72-74).9
in the United States must themselves represent an
element in the plaintiff s cause of action.” Siderman, 965
F.2d at 709 (emphasis added). The Supreme Court in
Sachs, however, explicitly disapproved the Ninth Circuit’s
“one element” test and endorsed a “core of [the] suit”
approach. Sachs, 136 S. Ct. at 396. Although Sachs
limited its analysis to the first clause, it is likely that the
Ninth Circuit’s one-element approach to the second clause
is no longer good law.
9 Defendants briefly contend that these acts cannot serve
as the basis for jurisdiction under the commercial
activity exception. See Mot. at 18-19 & n.4. Although the
Supreme Court overruled the Ninth Circuit’s “one
element” test in Sachs (see Sachs, 136 S. Ct. at 396; see
also supra n.8), this aspect of Siderman remains good law.
In Sachs, the plaintiff was injured by unsafe conditions at
a train station in Austria. Id. at 393. The Supreme Court
held that the defendant’s sale of Eurail passes in the
United States was irrelevant for the purposes of the
FSIA’s commercial activity exception because “all of her
claims turn on the same tragic episode in Austria.” Id. at
396 (citing Nelson, 507 U.S. at 358). Furthermore, to the
extent that the plaintiff alleged claims involving activity
in the United States, those claims relied on the existence
of wrongful acts abroad. Id.

24a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 9 of 16 (Continue)
Because Defendants now raise a factual challenge to
jurisdiction, Sequeira must offer proof of his allegations.
See Terenkian, 694 F.3d at 1131. He has not done so here
with regard to his first claim of commercial activity.
Sequeira presents no evidence that Defendants sold his
cattle as meat products in the United States. Indeed, the
only reference to cattle in the record is a passing
mention of “983 milk cows” in a 1999 contract for the sale
of land between Soceidad Agricola Y Ganadera ZapataSequeira, LLC, represented by Horacio, to Sequeira. See
Sequeira Decl., Ex. E at 78 [Doc. No. 180].
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 10 of 16
As for Sequeira’s second and third claims of commercial
activity, it is not clear that Defendants’ alleged
solicitation of investments is sufficient to abrogate their
sovereign immunity under the FSIA. Plaintiffs cannot
abrogate a “foreign nation’s sovereign immunity under
the first clause of the FSIA by pointing to preliminary
commercial activities in the United States.”
Terenkian, 694 F.3d at 1133. The alleged solicitation of
investment funds are similar to “contract
negotiations” and “telephone and wire communications,”
which are “preliminary” and “insufficiently significant to
meet this exception.” Id.
In contrast, the plaintiffs in Siderman alleged that the
sovereign defendant seized their hotel and continued
to receive “the profits and benefits that rightfully belong
to” the plaintiffs. Siderman, 965 F.2d at 709. Unlike
Sachs, where the injury-causing activity was a discrete
event, the activity causing the Siderman family harm was
the seizure of not only the hotel, but also the continuing
deprivation of the “profits and benefits” arising from the
hotel. This aspect of Siderman is not “clearly
irreconcilable” with Sachs or Nelson. See Lair v. Bullock,
798 F.3d 736, 745 (9th Cir. 2015).

25a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 10 of 16 (Continue)
Even if soliciting investment funds could abrogate
Defendants’ immunity, the Court finds that Sequeira has
not met his burden of production with regard to these
allegations. The only mention of a baseball stadium in the
evidence presented by Sequeira is an article announcing
the construction of a stadium in El Viejo. See Sequeira
Decl., Ex. N at 136 [Doc. No. 180]. Although that article
mentions several United States baseball players, it makes
no mention of Defendants soliciting from investors in the
United States. See id.
To support his allegation that Defendants solicited
investments in the United States at “Expo Nica,”
Sequeira presents a declaration from German Pena. See
Pena Decl. [Doc. No. 172], Pena was a founder of the Expo
Nica event series and served as an advisor to the
Chamber of Commerce Nicaraguense Americana of
California until 2012. See id. at 2—3.10 According to Pena,
the Nicaraguan consulate participated in Expo Nica in
2012. See id. H 5; see also id., Ex. C at 9 (letter from Pena
to Nicaraguan Consulate assigning them a booth at Expo
Nica). At one such event, according to Pena, the
Nicaraguan consulate collected funds “to build houses in a
location known as MOTOSA n” in El Viejo. Id.

10 Pena’s declaration appears to be missing a page. The
declaration states that Pena was an advisor of
“COCANACA” until 2012. See id. 1 3. “COCANACA” is
the aforementioned Chamber of Commerce. See id.; see
also Sequeira Decl., Ex. FF at 139 [Doc. No. 180-1].
11 In a prior complaint, Sequeira alleged that the MultiProcessing Plant was “commonly known as MOTOSA.”
See First Amended Complaint f 57 [Doc. No. 74],

26a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 10 of 16 (Continue)

Sequeira has not laid a proper foundation, however, for
Pena’s assertions regarding Defendants’ motives for
attending the event. It is unclear how Pena would know
whether Defendants solicited investments for a housing
development in El Viejo at the event—his position
as a founder and adviser for Expo Nica does not make him
privy to Defendants’ investment and funding strategy.
Nor did Pena state that he personally saw Defendants
soliciting investments.
Moreover, Defendants rebut Pena’s assertions with
declarations from various Nicaraguan government
officials. In particular, Guevara, the mayor of El Viejo,
attests that the housing development on the MultiProcessing Plant only used funds from the Nicaraguan
Institute for Urban and Rural Housing (“INVUR”). See
Guevara Decl. K 24; see also Cano Decl. If 7 [Doc. No.
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 11 of 16
138-25].12 Similarly, the El Viejo’s finance director,
Mivelda del Socorro Zavala Perez states that there is no
record of any funds received from persons or entities in
the United States for a housing project.

12 Sequeira objects to Cano’s declaration, arguing that
the declaration is hearsay. See generally Cano Obj.
[Doc. No. 152.] Olivia Margarita Cano Bustamante is the
co-director general of INVUR. See Cano Deck If 1. She
states that she reviewed INVUR’s internal records and
found that the housing development only used funds from
INVUR. The business records or public records exception
covers her testimony. See Fed. R. Evid. 803(6), (8). The
Court OVERRULES Sequeira’s objections.

27a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 11 of 16 (Continue)
See Zavala Decl. If 7 [Doc. No. 138-24],13 Nicaragua’s
Counsel General, Jose Alberto Acevedo Vogl, also attests
that, although the Nicaraguan consulate intended to
participate in Expo Nica in 2012, the consulate ultimately
cancelled its appearance due to security concerns. See
Acevedo Decl. IHf 4^6; see also id., Ex. 1 (article
explaining Nicaragua’s cancellation) [Doc. No. 181-5].
In sum, the weight of the evidence does not support
Sequeira’s claim that Defendants conducted commercial
activities within the meaning of the first or second clause
of the commercial activity exception. Thus, those clauses
do not apply.
2. Clause Three
Under the third clause of the FSIA, a foreign state is not
immune from jurisdiction in any case “based upon ... an
act outside the territory of the United States in
connection with a commercial activity of the foreign state
elsewhere and that act causes a direct effect in the United
States.” 28 U.S.C. § 1605(a)(2). Put differently, to invoke
the third clause of the commercial activity exception, a
plaintiff must identify: (1) an extraterritorial act by the
sovereign defendant; (2) a commercial activity connected
to that act; and (3) a direct effect in the United States. Id.

13 Sequeira objects to Zavala’s declaration on the grounds
of hearsay and lack of personal knowledge. See generally
Zavala Obj. [Doc. No. 149.] Zavala is the finance director
of El Viejo. She attests that she reviewed the centralized
payments register for El Viejo and found that there was
no record of any payments from any United States
entities. Federal Rule of Civil Procedure 44(b) and
Federal Rule of Evidence 803(10) permits such testimony.
The Court OVERRULES Sequeira’s objections.

28a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 11 of 16 (Continue)
An act outside of the United States has a direct effect “if
it follows ‘as an immediate consequence of the defendant’s
. . . activity.’” Terenkian, 694 F.3d 1133 (quoting Republic
of Argentina v. Weltover, Inc., 504 U.S. 607, 618 (1992)).
“[A] consequence is ‘immediate’ if no intervening act
breaks ‘the chain of causation leading from the asserted
wrongful act to its impact in the United States.’” Id.
(quoting Lyon v. Augusta S.P.A., 252 F.3d 1078, 1083 (9th
Cir. 2001)). Further, “[m]ere financial loss” suffered by an
individual or corporation in the United States is not
sufficient to constitute a “direct effect.” Siderman, 965
F.2d at 710 (quoting Am. W. Airlines, 877 F.2d at 799800). Thus, “to establish a ‘direct effect’ in the United
States resulting from an act occurring abroad, a plaintiff
must establish that ‘something legally significant actually
happened
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 12 of 16
in the U.S.’” Gregorian v. Izvestia, 871 F.2d 1515, 1527
(9th Cir. 1989) (quoting Zedan v. Kingdom of Saudi
Arabia, 849 F.2d 1511, 1515 (D.C. Cir. 1988)).
Sequeira contends that the third clause is implicated in
three ways: (1) Defendants disrupted the payment of
dividends pursuant to the bylaws of Smith, Inc. and
Smith Company; (2) Defendants receive payment
remittances to pay for the mortgage on the houses built
on the Multi- Processing Plant; and (3) rented out
warehouses on the Multi-Processing Plan.14 See TAC TfH
76— 82, 88—94. Sequeira does not present any evidence to
support his contentions.
14 Sequeira also argues that the third clause applies
because Defendants failed to pay him $2.5 million as
required by the Agreement. See id.
83-87. As
explained above, however, the Agreement is void ab initio.
See supra Part IV.A.

29a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 12 of 16 (Continue)
First, Sequeira contends that Defendants’ seizure of the
Multi-Processing Plant and Cosiguina property disrupted
the payment of dividends for Smith, Inc. and Smith
Company. See id. ft 76-82. This alleged seizure,
however, is insufficient to satisfy the third clause by itself
because it is not a commercial activity. See Lasheen, 603
F.3d at 1170 (9th Cir. 2010) (commercial activity refers
solely to “powers that can also be exercised by private
citizens”). The third clause only applies if Defendants
seized Sequeira’s property “in connection with” some
commercial activity. See 28 U.S.C. § 1605(a)(2) (no
immunity in cases “based upon ... an act outside the
territory of the United States in connection with a
commercial activity of the foreign state elsewhere . . . .”).
In its prior Order, the Court accepted as true Sequeira’s
allegation that Defendants operated the Multi-Processing
Plant for personal profit—an undoubtedly commercial
act—in connection with the alleged seizure because
Defendants raised a facial challenge only. See Order re
SAC at 11; see also Ninth Circuit Memorandum at 2 [Doc.
No. 112]. On a factual challenge, however, Sequeira must
provide evidence to prove his allegations. See Terenkian,
694 F.3d at 1131. As explained above, Sequeira submits
no evidence that Defendants sold cattle, solicited
investments, or otherwise conducted any commercial
activity underlying this lawsuit.15 See supra Part IV.B.l.

15 Defendants argue that Sequeira also cannot show that
the alleged takings had a “direct effect” in the United
States because neither Smith, Inc. nor Smith Company
could pay dividends given that Smith, Inc was suspended
by the California Franchise Tax Board in 2009. See Mot.
at 22-23. This argument is unpersuasive, however,
because the first taking occurred in 2006. See TAC f 12.
The taking had the “direct effect” of crippling Smith, Inc.
such that it could no longer pay its taxes, leading to its
suspension in 2009. See Opp. at 20. Nonetheless, the

30a
Second, Sequeira also presents no evidence that Defendants
received or continue to receive remittances sent by family
members in the United States to pay for mortgages in
Nicaragua. Although Sequeira's allegation has a ring of truth,
mere allegations are insufficient to survive a factual challenge
to jurisdiction no matter how probable. See Terenkian, 694
F.3d at 1131. Sequeira must provide evidence supporting his
allegation and he did not do so here. More
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 13 of 16
importantly, even if Sequeira could offer evidence of his
allegation, remittances by family members do not
constitute a “legally significant act” within the meaning of
the FSIA. Payment of remittances by United States
families is not an “immediate consequence” of Defendants’
alleged seizure of Sequeira’s property. There are several
intervening steps breaking the chain of causation:
Defendants must build houses on the Multi-Processing
Plant, individuals with families in the United States must
purchase those houses, and those families must pay
remittances. The alleged remittances are too remote and
attenuated from the core of this suit to satisfy the third
clause. See id. at 1138—39.
Finally, Sequeira presents no evidence that Codemet or
any other tenant paid rent to Defendants. Sequeira
alleges that Codemet and another entity, Consa, rented
warehouses on the eastern half of the Multi-Processing
Plant before Defendants seized the property. See Sequeira
Decl.
41-52. [Doc. # 168.] Although Sequeira’s
declaration claims that he has rental contracts with the
two entities, Sequeira does not produce any such
contracts. See id.
46, 48-49.

commercial activity exception requires Sequeira to
identify (and now prove) some commercial activity
conducted by Defendants. See Terenkian, 694 F.3d at
1132-33. As explained, Sequeira has not done so.

31a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 13 of 16
Sequeira only produced two checks purportedly issued by
Consa and Codemet in 2006 and 2008, respectively, but it
is not clear that Codemet or Consa issued those checks to
pay rent. See id., Ex. S at 154; id., Ex. T at 156 [Doc. No.
180]. Even if Codemet and Consa rented warehouses from
Sequeira prior to Defendants’ taking, it does not follow
that Defendants rented warehouses to Codemet and
Consa. Indeed, Defendants’ declarations state that there
are no records of any such rental payments. See, e.g.,
Zavala Decl. ^ 8. Sequeira also presents no evidence that
Codemet and Consa are still tenants of those warehouses.
In sum, Sequeira fails to show that the third clause of
the commercial activity exception applies.
C. Expropriation and Noncommercial Tort
Exceptions
In Sequeira’s Opposition, he argues that the
expropriation and noncommercial tort exceptions also
apply. See Opp. at 21—25. The Court previously dismissed
Sequeira’s attempt to assert those exceptions and gave
Sequeira leave to allege additional facts in support of
those exceptions. See Order re SAC at 11-14 (finding that
Sequeira alleged insufficient facts to support the
expropriation and noncommercial tort exceptions).
Specifically, the Court found that although Sequeira
sufficiently alleged that Defendants took his property in
violation of international law, Sequeira failed to allege
sufficient facts to satisfy the first or second clause of the
expropriation exception. See id. at 11-13. The Court also
found that Sequeira failed to allege any facts showing
that Defendants’ alleged tortious conduct occurred in the
United States. See id. at 14.
Sequeira’s TAC did not re-plead the expropriation and
noncommercial tort exceptions. He cannot amend his
complaint by way of an opposition to a motion to dismiss.

32a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 13 of 16 (Continue)

In any event, even if leave to amend could be extended
once again to do so, Sequeira’s arguments fail because he
offers no evidence in support of his contention that the
expropriation exception applies. Nor did Sequeira
Title Jairo Sequeira v. The Republic of Nicaragua,
Page 14 of 16
et al.
cure the relevant deficiencies in his prior complaint
relating to the noncommercial tort exception—he did not
allege or present any evidence that Defendants’ tortious
conduct occurred within the United States.
Based on the evidence in the record, the Court finds
that no exception to sovereign immunity applies.
Defendants are therefore entitled to immunity and their
Motion to Dismiss is GRANTED.16
D. Sequeira's Motion for Reconsideration
Federal Rule of Civil Procedure 60(b) provides that a
court may relieve a party from any prior order or decision
for a number of reasons including, but not limited to: (1)
mistake, inadvertence, surprise, or excusable neglect; (2)
newly discovered evidence that could not have been
discovered with reasonable diligence; and (3) any other
reason that justifies relief. Fed. R. Civ. P. 60(b)(1), (6).

16 Because the Court concludes that Defendants are
entitled to sovereign immunity, it does not reach
Defendants’ venue argument.

33a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 14 of 16 (Continue)
Under Local Rule 7-18, a party may seek
reconsideration “only on the grounds of (a) a material
difference in fact or law from that presented to the court
before the decision that in the exercise of reasonable
diligence could not have been known to the party moving
for reconsideration at the time of the decision, or (b) the
emergence of new material facts or a change of law
occurring after the time of the decision, or (c) a manifest
showing of a failure to consider material facts presented
to the court before the decision.” C.D. Cal. L.R. 7-18. “No
motion for reconsideration shall in any manner repeat
any oral or written argument made in support of or in
opposition to the original motion.” Id. “Whether to grant a
motion for reconsideration under Local Rule 7-18 is a
matter within the court’s discretion.” Daghlian v. DeVry
Univ., Inc., 582 F. Supp. 2d 1231, 1251 (C.D. Cal. 2007).
Sequeira moves for reconsideration of the Court’s Order
denying his request for an extension of time to file an
opposition. The Court granted Sequeira a three-week
extension of time to file his opposition. In any event,
Sequeira met the deadline and his request for an
extension of time is now moot.
Sequeira also moved for reconsideration of the Court’s
Order denying his request for jurisdictional discovery,
arguing that discovery is appropriate to verify or test the
statements made in Defendants’ supporting declarations.
In its Order, the Court stated that it denied Sequeira’s
request because he failed “to identify any specific relevant
facts that he reasonably believes could be substantiated
through jurisdictional discovery.” Order re PI. Request
(citing Af-Cap, Inc. v. Chevron Overseas (Congo) Ltd., 475
F.3d 1080, 1095-96 (9th Cir. 2007)) [Doc. # 145.] Other

34a
Title Jairo Sequeira v. The Republic of Nicaragua,
Page 15 of 16
et al.
than a broad and open-ended request for jurisdictional
discovery, Sequeira still has not identified any specific
facts or allegations that could be substantiated through
limited discovery nor is it clear which parts of Defendants’
supporting declarations Sequeira intends to verify or test.
The fact that Defendants have raised a factual challenge
to subject matter jurisdiction does not entitle Sequeira
to unspecified discovery.
Accordingly, the Court DENIES Sequeira’s Motion for
Reconsideration.
E. Sequeira’s Motion to Certify Order for
Interlocutory Review
Under 28 U.S.C. § 1292(b), a district court may certify
for immediate appeal an otherwise unappealable
interlocutory order where an order “involves a controlling
question of law as to which there is substantial ground for
difference of opinion and that an immediate appeal from
the order may materially advance the ultimate
termination of the litigation.” 28 U.S.C. § 1291(b); see
also In re Cement Antitrust Litig. (MDL No. 296), 673
F.2d 1020, 1026 (9th Cir. 1982). Section 1292(b) is
narrowly construed. James v. Price Stern Sloan, Inc., 283
F.3d 1064, 1067 n.6 (9th Cir. 2002).
Sequeira moves to certify the Court’s Order denying
limited jurisdictional discovery for interlocutory review.
Interlocutory review is not warranted, however, as none
of the three requirements of § 1292(b) have been met.
First, whether the Court erred in denying jurisdictional
discovery does not require the resolution of a controlling
question of law. Rather, Sequeira requests review of
whether the Court abused its discretion. Second, there is
no “substantial ground for difference of opinion,” given
that the law regarding jurisdictional discovery is wellsettled. See Couch v. Telescope Inc., 611 F.3d 629, 633
(9th Cir. 2010) (“That settled law might be applied

35a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 15 of 16 (Continue)
differently does not establish a substantial ground for
difference of opinion.”). Finally, interlocutory appeal of
the Court’s Order is unnecessary, because Sequeira may
now appeal all of this Court’s rulings if he wishes to do so.
Accordingly, the Court DENIES Sequeira’s Motion to
Certify Order for Interlocutory Review.
F. Sequeira’s Motion for Rule 11 Sanctions
Federal Rule of Civil Procedure 11(c)(2) provides in
pertinent part that a motion for sanctions “must be served
under Rule 5, but it must not be filed or presented to the
court if the challenged paper, claim, defense, contention,
or denial is withdrawn or appropriately corrected
within 21 days after service or within another time the
court sets.” The Ninth Circuit “enforce[s] this safe harbor
provision strictly[,]” such that an award of sanctions will
be reversed if the movant “failed to comply with the safe
harbor provisions, even [if] the underlying filing is
frivolous.” See Holgate v. Baldwin, 425 F.3d 671, 678 (9th
Cir. 2005).
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 16 of 16
Here, Sequeira’s notice of motion represents that the
motion was served on Defense Counsel on April 27, 2018.
17 See Rule 11 Mot. at 2-3 [Doc. # 188]. On that same day,
Sequeira filed the motion as an attachment to a
declaration supporting his motion to strike. [Doc. # 180 at
8-33.]
17 On the other hand, Sequeira’s declaration asserts that
he somehow served the motion on Defense Counsel on
November 27, 2018. See Sequeira Decl. at f 2 [Doc. #
190].

36a
Title Jairo Sequeira v. The Republic of Nicaragua,
et al.
Page 16 of 16 (Continue)
Sequeira thus violated the safe harbor provision by failing
to afford Defendants a fair opportunity to withdraw or
correct their previous filings before he filed the motion or
presented it to the Court. See Folta v. Winkle, No. CV 1401562, 2016 WL 4087103, at *2-3 (D. Ariz. July 28, 2016)
(holding that a plaintiff violated Rule 11(c)(2) by filing the
sanctions motion as an exhibit to another filing); Young v.
City of Providence, 404 F.3d 33, 39 (1st Cir. 2005) (“[T]he
object of the safe harbor is to allow a party to privately
withdraw a questionable contention without fear that the
withdrawal will be viewed as an admission of a Rule 11
violation.” (emphasis added)). Accordingly, the Court
DENIES Sequeira’s Rule 11 motion.18
V.
CONCLUSION
In light of the foregoing, Defendants’ motion to dismiss
is GRANTED without prejudice for lack of subject matter
jurisdiction. See Frigard v. United States, 862 F.2d 201,
204 (9th Cir. 1988) (“a case dismissed for lack of subject
matter jurisdiction should be dismissed without prejudice
so that a plaintiff may reassert his claims in a competent
court” in a jurisdiction outside of the United States).
Sequeira’s Motion for Reconsideration, Motion to Certify
Order for Interlocutory Review, Request and Motion to
Strike, and Motion for Rule 11 Sanctions are
DENIED.
IT IS SO ORDERED.
18 Sequeira states that, “[sjhould the Court find Rule 11
insufficient to provide authority to sanction the conduct at
issue here for any reason, [he] also invoke [s] the Court’s
inherent power to sanction litigants in order to ensure the
integrity of the Court’s processes.” See Rule 11 Mot. at 28
n.2. Yet, Sequeira fails to cite any authority establishing
that he may invoke the Court’s inherent authority to
excuse his failure to comply with Rule ll(c)(2)’s safe
harbor provision. In fact, such an approach would flout
the purpose of the safe harbor requirement. See Young,
404 F.3d at 39.

37a
APPENDIX E
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
JAIRO SEQUEIRA, Plaintiff, v. REPUBLIC OF
NICARAGUA, et al., Defendants. Case No. CV 13-43332DMG (FFMx) JUDGMENT
On February 20, 2014, the Court granted the motion
to strike or dismiss for lack of personal jurisdiction filed
by Defendants Aminta Elena Granera Sacasa, Manuel
Zambrana Bermudez, Santiago Cruz, Francisco Aguilera
Ferrufino, and Ali Boanerge Espinoza Juarez. On August
24, 2018, the Court granted the motion to dismiss for lack
of subject matter jurisdiction filed by Defendants the
Republic of Nicaragua, the City of Chinandega, and the
City of El Viejo.
IT IS HEREBY ORDERED, ADJUDGED, and DECREED
that this action is DISMISSED without prejudice for lack
of jurisdiction. DATED: August 24, 2018. Signed by
DOLLY M. GEE UNITED STATES DISTRICT JUDGE

38a
APPENDIX F
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MAY 30 2017, MOLLY DWYER, CLRK US COURT OF
APPEALS,
JAIRO SEQUEIRA, A Citizen of the United States of
America, Plaintiff-Appellant, v. THE REPUBLIC OF
NICARAGUA, a foringn Country; et al., DefendantsAppellees. No. 15-55417 D.C. No. 2:13-cv-04332-DMGFFM MEMORANDUM*
Appeal from the United States District Court for the
Central District of California Dolly M. Gee, District
Judge, Presiding Submitted May 24, 2017**
Before: THOMAS, Chief Judge, and SILVERMAN and
RAWLINSON, Circuit Judges.
Jairo Sequeira appeals pro se from the district court’s
orders dismissing his action against the sovereign
defendants for lack of subject matter jurisdiction and
dismissing his action against the individual defendants
for lack of personal jurisdiction. We have jurisdiction
under the Foreign Sovereign Immunities Act (“FSIA”),
Phaneuf v. Republic of Indonesia, 106 F.3d 302,304-05 (9th
Cir. 1997), and determinations as to personal jurisdiction,
Love v. Associated Newpapers. Ltd., 611 F.3d 601, 608
(9ht Cir. 2010). We affirm in part, vacate in part, and
remand. The district court dismissed Sequeira’s first
amended complaint against the sovereign defendants
with prejudice because Sequeira did not produce evidence
that an exception to immunity under the FSIA applied.
However, Sequiera was not required to produce such
evidence in response to a facial attack on subject matter
jurisdiction. See Terenkian v. Republic of Iraq, 694 F.3d
1122, 1131 (9th Cir. 2012) (setting forth burden-shifting
framework of the FISA and explaining that in facial

39a
jurisdictional challenges a presumption of truthfulness
attaches to allegations in the complaint). We therefore
reverse the dismissal of the claims against the sovereign
defendants and remand for further proceedings.
The district court properly dismissed the second
amended complaint against the individual defendants for
lack of personal jurisdiction because the allegations did
not establish that the individual defendants purposefully
availed themselves of a United States forum, see Holland
Am. Line Inc. v. Wartsila N. Am., Inc., 485 F.3d 450, 458
(9th Cir. 2007) (Defendants did not assent to the forum
selection clause)., or purposefully directed any activities
toward the United States, See Love, 611 F.3d at 609
(defendant’s alleged intentional acts were not directed at
the forum state). Sequeira’s motion to strike (Docket
Entry No. 13) is granted insofar as it request that we
limit our review to the district court record. All other
requests set forth in that motion (Docket Entry No. 13)
are denied. The parties Shall bear their own costs on
appeal. AFFIRMED in part, VACATED in part, and
REMANDED.

40a
APPENDIX G
EXHIBIT A
(Translation to Exhibit #4 attached to Jairo Sequeira’s
Declaration Docket 101)
CERTIFIED NOTARIAL ACT LEGAL DOCUMENT
NUMBER THREE, Acknowledgment of Debt and
Payment Agreement.
At fifty minutes past two O’clock in the afternoon of the
twenty-ninth day of the month of May of the year two
thousand and seven. Before me; Horacio Ramon Sequeira
Argenal, attorney and notary public of the Republic of
Nicaragua, authorized by the Honorable Supreme Court
of Justice to exercise as a notary within the
quinquennium which ends the fifth day of November of
the year two thousand and seven. Appears before me: Mr.
German Munoz Moncada, an adult, Married Attorney at
law, Mayor of the City or Municipality of El Viejo and
whose domicile is the city of El Viejo, identified with his
Nicaraguan identification card number 081-0707610000U, and who appears before me in his capacity as the
Mayor of the Municipality of El Viejo, as evidenced by the
original Certification of Appointment by the Municipal
Council of the city of El Viejo and to which I give faith of
having seen said original certification and is not inserted
within this legal document due to said document has been
previously inserted in a previous certification, from here
on said person would be referred to as Mr. Mayor of the
city of El Viejo, “The debtor” and Mr. Jairo Aristides
Sequeira Argenal, who is an adult, married, a Merchant
domiciled in the City of los Angeles, California, transiting
this city and who is identified himself with a passport
0811080 and identification number 081-160869-0002X;
who appears before me in his double capacity in his own
name as owner of shares or shareholder and legal
representative of Smith Modular Construction Systems
and as a shareholder and legal representative of the
corporation Smith Sociedad Anonima, pursuant to
Nicaragua Civil Code Article 2372, which reads in
pertinent part: Article 2372C. Notarial instruments

41a
authenticated by a Notary or public official in favor of a
family member are valid in a matter in which...the
interested parties are interested only because they have a
share in corporations, or are managers or directors
thereof, the instrument shall be valid, the same as when
all interested parties are related or are relatives to the
notary within said degrees and the notary has no interest
in the instrument Mr. Sequeira is appearing before me as
owner of the 50% of shares and legal representative of
Smith Modular Construction System and as owner of
shares or shareholder and legal representative of the
corporation Smith Socieda Anonima. The corporation
Smith Sociedad Anonima functions as a subsidiary of the
corporation Smith Modular Construction System which is
legally incorporated in California as evidenced by the
Certificate that is shown to me, and that I give faith to
see it before me, from here on said person would be
referred to as Mr. Sequeira “Creditor” and I give faith
to know both parties to this contract personally and to my
knowledge they both have the capacity and civil
knowledge perfectly to enter into obligations and to enter
into contracts, specifically in this contract, who from their
free will and with their spontaneous consent through this
legal instrument in their own capacity previously
expressed as follows: FIRST: Mr. Sequeira the Creditor
states, that Creditor states, that the entity he represents
Smith Sociedad Anonima, and Mr. Sequeira himself are
owners in dominion and possession of two lots of land
located in the Municipality of the city of El Viejo, in a
semi-urban area toward the east of the city of El Viejo.
The first lot consisting of five hectares and four thousand
seven hundred square meters (5 Has. 4700 m2) equivalent
to seven blocks and seven thousand eighty seven square
meters, and said lot number is identified by its City
Planning County Record number 2753-1-02-000-08600
and its public Registry number is 7.907, Volume 421, File
75, seat 11. Its Registry City Planning Receipt and its
City Planning Certification number is C.C. (R) #03-090
fount in its Soliciting Registry’s number 1963, issued by
the Chinandega Public City Planning Registry on the
twenty third day of June of the year nineteen hundred

42a
seventy of June of the year nineteen hundred seventy
seven which corresponds to the number 38874 of the
Chinandega Public Registry, said lots’ bounds located at
the North Street where the train station was located;
South towards Silvio Rene Bolainez, East Buenos Aires
Villa, West Motosa Corporation, which property used to
belong to Mr. Takashi Shimazaki. Mr. Sequeira acquired
the possession and the dominium with the improvements
inclusive since November fourteenth of the year nineteen
hundred and ninety-nine with a lien that was set by the
Board of Collection of Debts, which subsequently said
debt was cancelled due to a payment made by Mr.
Sequeira
which
original
receipt
and
original
documentation of said payment cancelling the lien is
demonstrated by Mr. Jairo Aristides Sequeira Argenal,
and it contains a seal of the Board of Collection of Debts of
the Central Bank, the second lot consist of an
approximate area of seven blocks, located where the
corporation Motosa operated for several years, it is
registered under the number 16535, seat No.3, File 239
and 240 of the Volume 9 and files 81, 83, 84, 110 and 111
of the Volume 344 under the section of Real Estate of the
Chinandega Public Registry. Said registrations were
registered pursuant to article 3938 of the Nicaraguan
Civil Code. SECOND: Mr. Mayor of The City of El
Viejo, “The Debtor,” Attest that in the Ordinary Session
number 47 that took placed in October of the year two
thousand and two he declared Public Utility the
aforementioned real estate property located towards the
east which is located in El Viejo, and under his authority
he issued a request to the Chief of the Chinandega Police
Department Mr. Jose Francisco Aguilera Ferrufino to
evict Mr. Sequeira and said Chief of the Chinandega
Police Department conferred the possession in favor of the
CITY OR MUNICIPALITY OF EL VIEJO without the
need for previous payment for indemnification of said
property where the stadium is going to be functioning, a
basket ball court, and the rest of the lots for houses to
private individuals. Due to the fact that Mr. Jairo
Sequeira “The Creditor” currently has possession of both

43a
lots of said property known as Motosa for a periodof seven
years and due to the fact that the possession of said
property has been ratified by the Civil Court of the
Second District of Chinandega, the Civil Court of the
Second District of Leon and the Local Civil Court of the
city of El Viejo. In representation of the City of El Viejo,
(the city of El Viejo), Mr. Mayor of the municipality of El
Viejo, German Munoz Moncada, agrees to pay the sum of
two and a half million American dollars to Mr. Jairo
Aristides Sequeira Argenal and the corporation he
represents Smith Sociedad Anonia, said payment will be
deposited directly into the bank account of Mr. Sequeira
or the Corporation Smith Sociedad Anonima in the City of
Los Angeles, California where both domiciled, and
scheduled payments will be as follows: The thirtieth of
June of the year two thousand and eight the payment of
one million and two hundred and fifty thousand dollars;
And the first payment will take place on August thirtieth
of the year two thousand and seven which will consist of a
payment of one million two hundred and fifty American
dollars via wire transfer to Mr. Sequeira’s bank account in
a bank located in the United States of America for the
payment of the first seven blocks of land where there the
stadium is located, and subsequently it will e decided the
value of the rest of the property where the shrimp
processing plants, the 16 warehouses, the office, the
assembly line to build panels for the construction of
houses, the warehouses, the weigh station, the office, and
the model home are located. Due to the fact that Mr.
Sequeira has continually been in possession of said
property, and since this part of the property continues to
be in dispute, Mr. Sequeria states that his rights have
been violated and he bases said statement upon article
617 of the Nicaraguan Civil Code because he has not been
indemnified in accordance with said code and due to the
fact that he continues in the possession of aforementioned
property already described for a period of seven years,
The Municipality o f El Viejo through the City Hall and
under the Mayor’s authority agree to pay the sum of the
money already described above and in relation to the
related lot. Due to the fact that the city has an interest to
build houses for sale and rent and to sell lots for the

44a
construction of houses for private individuals and said
funds are for the purpose of private purposes. Due to the
fact that Mr. Sequeira and the corporation Smith Modular
Construction System also is in the business of
construction and shipping of houses for low income
individuals in the United States, and also in the business
of renting of properties, and since Mr. Sequeira “The
Creditor”, continues having possession of the property
subject to this agreement despite the fact that the City of
El Viejo previously solicited an order from the Chief of the
Chinandega Police Department, Mr. Jose Francisco
Aguilera Ferrufino to evict Mr. Sequeira and in that
occasion said Chief of Police authorized the possession of
the aforementioned property in favor of the City of El
Viejo, and due to the fact that Mr.Sequeira entered the
property again and took possession again pursuant to
several court orders and that recently he has made
expensive improvements on said property and he has
shown me the orders of the Local Civil Court of El Viejo,
who named him Judicial Receivership of the property
subject to this agreement and said appointment of
Receivership was ratified by Civil Court of the Second
District of the City of Leon, and also the Civil Court of
the Second District of Chinandega sent an order ratifying
these previous orders and due to the fact that said
appointment
of
Judicial
Receivership
of
the
aforementioned property was registered in the
Chinandega Public Registry, based upon the court orders
have given Mr. Sequeira the possession and due to the
fact that he has not been indemnified for the lot of land
located in the East that this authority (the mayor of El
Viejo) declared of public utility and that was previously
described , the City of El Viejo through the City Hall of El
Viejo and through this authority agrees to this contract of
acknowledgement of debt and agrees to indemnify and
pay Mr. Sequeira for the seven blocks in accordance with
Article 617 of the Nicaraguan Civil Code in the manner
and schedule previously stated above. Third: In the event
that a breach of this contract occurs and a dispute is
raised against the City of el Viejo which is being
represented by Mr. Moncada (The City of El Viejo), and
who is acting in the capacity of the Mayor of the City of El

45a
Viejo, municipality of the Chinandega Department, this
authority expressly forfeits the jurisdiction and accepts to
submit to the jurisdiction that Mr. Sequeira chose and
that he has the plain liberty to choose he competent court
in the jurisdiction of California in the United States of
America, or wherever the considers convenient to bring
any dispute whether that be in the civil or penal or for
indemnification of damages or for trespasses to his right
of possession related to the aforementioned property
subject to this contract. This contract is subject to the
Nicaraguan Commerce Code articles 8 and 10 and that
are similar to International Commerce laws. FOURTH:
Mr. Sequeira attest to accept the present Contract of
Acknowledgement of Debt and Payment Agreement that
is issued to him in this act within the terms and
conditions previously mentioned above.
This is the
manner in which both parties who appeared before me
expressed their will and intent and who have been
instructed by me the notary whom I made known bout
the object, meaning and legal consequences of this act and
the meaning and consequences of the general clauses and
specifically those clauses that involve renunciations
implicit and explicit of all I give faith. And then after I
have read to both parties participants to this agreement
everything that has been stipulated and subsequently
memorialized in this written agreement both parties
expressly stated that they find this agreement to conform
with their purpose and intent and mutually assent and
sign with me the notary which I give faith, declare and
attest to this act. (f)(means signature of Licensee German
Munoz
Moncada.(f)
means
signature
of Jairo
Sequeira(f)means signature H. Sequeira A. Attorney and
Notary Public. Transfer before me to the font of the file
number four and the back of the fifth file of my notarial
book number sixteen that belongs to the current year and
in response to the solicitation b Mr. Jairo Aristides
Sequeira Argenal, I issued and released to him this first
Certified Notarial Act or also known as Testimony that
consists of two sheets of governmental seal papers Series
“L” NO. 00833123 and that I signed and sealed and
ratified in the city of Chinandega at fifty minutes past
four O’clock in the afternoon of the twenty-ninth of the

46a
month of May of the year two
Amendment-five-valid-.-two-valid.

thousand

seven

“SEAL”
Horacio Ramon Sequeira Argenal.
Attorney and Notary Public.
REPUBLIC OF NICARAGUA, CENTRAL AMERICA
STAMP HORACIO SEQUEIRA ARGENAL
Attorney-at-law and Notary Public. Republic of Nicaragua
Central America.
CERTIFIED COPY
DEED NUMBER THREE. Acknowledgement of debt and
commitment to pay. Done at 2:50 p.m. on May 29 2007.
Before me, Horacio Ramon Sequeira Argenal, attorney-atlaw and notary public for the Republic of Nicaragua, duly
authorized by the Supreme Court of Justice to exercise
notarial duties during the five-year period ending on
November 5, 2017, appear the following individuals:
German Munoz Moncada, a married lawyer of legal age,
Mayor of the city or municipality of El Viejo, domiciled in
the city of El Viejo, identified with Nicaraguan citizenship
identity card number 081-070761-000U, appearing in his
capacity as Mayor of the Municipality of El Viejo, as
evidenced by the original copy of the certificate of
appointment issued by the Municipal Council of El Viejo,
which he produced and I certify to have personally seen,
but have not inserted into this as it had already been
incorporated into a previous deed, who shall hereinafter
be referred to as the Mayor of the city of El Viejo, “The
Debtor”; and Mr. Jairo Aristides Sequeira Argenal, a
married businessman of legal age domiciled in the city of
Los Angeles, California, temporarily in this city,
identified with Nicaraguan passport number 081080 and
identity card number 081-160869-0002X, who appears on
his own behalf and on behalf of Sociedad Anonima Smith,
with the scope of powers stated in Section 2372 of the
Civil code; the Smith corporation operates as a branch of
Sociedad Smith Modular Construction System, which is
legally incorporated in California, and he is its
47a

representative according to the document produced by
him, which is legally incorporated in California, and he is
its representative according to the document produced by
him, which I attest to have personally seen, hereinafter
referred to as “The Creditor.” I personally know both
parties, and, to the best of my belief they have full civil
capacity as legally necessary to enter into an agreement,
in particular for this act, and they freely and
spontaneously express their intent through this
instrument in their above-stated capacities, and on behalf
of the entities they represent hereby state as follows.
FIRST: Mr. Sequeira, “the Creditor,” states that the
company he represents, Smith Sociedad Anonima, and
Mr. Sequeira are the owners and possessors of two plots of
land located in the Municipality of El Viejo, in a semiurban area east of the city of El Viejo. The first has a
surface area of five hectares and four thousand, seven
hundred square meters (5 ha. 4700 sq. m.), equivalent to
seven blocks, seven thousand, five hundred eighty-seven
square meters, whose cadastral number is 2753-1-02-00008600 and record number is 7,907, volume 421, page 75,
entry 11, with cadastral appraisal receipt and cadastral
data certificate number C.C. #03-090 covered by request
number 1963, issued by the Public Cadastre of
Chinandega on Jun 23, 1977, recorded under number
38874 of the Public Real Estate Registry of the
Chinandega department, with the following boundaries:
northern boundary: adjacent to the place where the
railway used to be; southern boundary: adjacent to Mr.
Silvio Rene Bolainez’s property; eastern boundary:
Colonia Buenos Aires;
and western boundary;
Desmotadora (Cotton gin plant) Motosa, formerly owned
by Takashi Shimazaki. Mr. Sequeira acquired possession,
ownership and improvements as of November 14, 1999,
with an encumbrance created by the liquidation board,
which was cancelled (the original receipt and documents
are produced by Jairo Aristides Sequeira Argenal before
me, with the stamp of the Central Bank Liquidation
Board). The second plot of land has a surface area of
approximately seven blocks and is located where
Desmotadora Motosa operated for many years. It is
recorded under number 16535, entry 3, pages 239 and 240

48a
of volume 9 and pages 81, 82, 83, 84, 110 and 111 of
volume 344, real estate section of the public Registry of
Real Estate Property of the department of Chinandega.
The record of said instruments is subject to Section 3938
of the civil Code. SECOND: The Mayor of the city of El
Viejo, “the Debtor,” states that the property located in
east El Viejo was declared of public use at Ordinary
Session No. 47 held on October 2, 2002. Said authority
requested that the Chief of the Chinandega Police, Mr.
Jose Francisco Aguilera Ferrufino, evict Mr. Sequeira and
give possession to the CITY OR MUNICPALITY OF EL
VIEJO, after giving just compensation for the property,
where a basketball stadium is going to operate, and in the
rest of the field, the Mayor’s Office will carry out housing
projects to rent and sell plots and houses to individuals.
In view of the fact that Mr. Jairo Sequeira, “the Creditor,”
has possessed the property known as Motosa for seven
years and the Second Civil court for the District of
Chinandega, the Second Civil Court for the District of
Leon and the Local Court of El Viejo have ratified such
possession, on behalf of the Municipality of El Viejo (the
City of El Viejo), the Municipal Mayor of El Viejo, German
Munoz Moncada, undertakes a commitment to pay two
million, five hundred United States dollars to Mr. Jairo
Aristides Sequeira Argenal and his principal, Smith
Sociedad Anonima, which funds shall be directly
deposited in either Mr. Sequeira’s or Smith Sociedad
Anonima’s account in the city of Los Angeles, California,
where both are domiciled, within the following periods:
One Million, two hundred fifty thousand dollars will be
paid by June 30, 2008 and the first payment of one
million, two hundred fifty thousand dollars will be made
by August 30, 2007, via wire transfer to Mr. Sequeira’s
account in a bank in the United States for the first seven
blocks of land where the Stadium has already been built;
subsequently, the rest of the property will be appraised,
including the shrimp processing plant, the 16 storage
sites, the office, the processing plant for house
construction, warehouses, the truck scale, the office and
the model house. In view of the fact that Mr. Sequeira has
continuously possessed said property, and that this part
of the property is still in dispute, Mr. Sequeira claims that

49a
Section 617 of the Nicaraguan Civil Code has been
violated, since he has not been compensated and has
continuously possessed the above-described property for
more than seven years, the Municipality of El Viejo,
through the Mayor’s Office intends to carry out housing
projects; in view of the fact that Mr. Sequeira and Smith
Modular Construction System are also in the industry of
construction and shipping of low-income housing to the
United States, and of property leasing; in view of the fact
that Mr. Sequeira, “the Creditor,” continues to possess the
above-described property in spite of the order issued by
the Office of the Mayor of El Viejo for the Chief of the
Chinandega Police, Mr. Jose Francisco Aguilera
Ferrufino, to evict Mr. Sequeira, and that the Chief of the
Chinandega Police did give possession of the property to
the municipality of El Viejo; in view of the fact that Mr.
Sequeira returned to the property and has recently made
very valuable improvements under several orders issued
by a number of courts of law (given that, according to the
documents under several orders issued by a number of
courts of law (given that, according to the documents
shown by him to me issued by the Local Court of El Viejo,
he was appointed official receiver of the property; such
appointment was ratified by the Second Civil Court for
the District of Leon, and the Second Civil Court for the
District of Chinandega ordered compliance with such
order); and in view of the fact that an order was issued for
the appointment as official receiver of the property be
registered with the public Registry of Real Estate
Property of Chinandega, since courts have granted Mr.
Sequeira possession and he has not been compensate for
the property in the east side of the city declared of public
use as described above, the city of El Viejo, through the
office of the Mayor of El Viejo and through this authority,
hereby undertakes a commitment to compensate Mr.
Sequeira for seven blocks pursuant to Section 617 of the
Nicarguan Civil Code, within the terms and in the
manner stated above. Third: in the event of breach of this
agreement. Mr. Moncada on behalf of the Municipality of
El Viejo (City of El Viejo), and in his capacity as Mayor of
El Viejo, municipality in the Department of Chinandega,
this authority expressly waives jurisdiction and agrees to

50a
submit to the jurisdiction chosen by Mr. Sequeira, who is
entirely free to choose the jurisdiction of California,
United States, or any other venue deemed convenient to
settle civil or criminal disputes, or disagreements over
damages or disturbance of possession of the property
described above. This agreement will be governed by the
Code of Commerce of Nicaragua, Section 8 and 10, which
are in accordance with the laws of the United States on
Commerce, as well as international provisions of the
Universal Code of Commerce. FOURTH: Mr. Sequeira
states that he accepts the acknowledgment of debt and
commitment to pay granted hereunder, pursuant to the
terms and conditions stated above. The above are the
statements of the parties, instructed by me, the notary, as
regards the purpose, value and legal relevance of this act,
its scope and sense, and the meaning of the general and
special clauses involving implicit and explicit waiver and
covenants, to which I attest. This document having been
read to the parties, they expressed their agreement and
signed it with me, the notary, attesting to all of the
above./s/ (illegible) by Mr. German Munoz Moncada;
/s/Jairo Sequeira/s/ H Sequeira A. attorney-at-law and
Notary Public. Before me, from the front of page four and
the back of page five of my protocol number sixteen for
this year, and at the request of Jairo Aristides Sequeira
Argenal, I hereby issue this first certified copy in two
pages of letter-headed paper, Series “L” No. 0833123 and
0833124, which I have signed, stamped and sealed in the
city of Chinandega at 4:50 pm on May 29, 2007. (list of
typographic error in Spanish and their corrections.
Signature Horacio Ramon Sequeira Argenal attorney-atat law and Notary Public. Stamp from Republic of
Nicaragua Horacio Ramon Sequeira Argenal Republic of
Nicaragua, Central America.

51a
GEOTEXT, Translations, STATE OF NEW YORK,
COUNTY OF NEW YORK, CERTIFICACION- This is to
certify that the attached translation is, to the best of my
knowledge and belief, a true and accurate translation
from Spanish into English of the attached certified copu of
Deed Number Three: Acknowledgement of Debt and
Commitment to Pay. signed. Lynda Green, Senior
Managing Editor Geotext Translations, Inc.-Sworn to and
subscribed before me this 26th day of February 2018.signed. KRISTEN DUFFY. NOTARY PUBLIC-STATE OF
NEW YORK NO.01DU6121852.-Qualified In Queens
County My Commission expires 01-31-2021

52a
APPENDIX H
106th CONGRESS
2D Session

H.R 4602

To protect United states citizens against expropriations of property
by the Government of the Republic of Nicaragua

IN THE HOUSE OF REPRESENTATIVES
June 8,2000
Mr. GILMAN (for himself, Mr. DELAY, Mr. HYDE, Mr.
BURTON of Indiana, Mr. McCOLLUM,
Mr. HING, Mr.
PONDO, Mr. DEUTSCH, and Mr. GONZALEZ) introduced the
following bill; which was referred to the committee on international
relations, and in addition to the committee on banking and financial
services, for a period to be subsequently determined by the Speaker,
in each case for consideration of such provisions as fall within the
jurisdiction of the committee concerned.

A BILL
To protect United State Citizens against expropriations of
property by the Government of Republic of Nicaragua.
Be it enacted by the senate and house of Representatives
of the United States of America in Congress assembled,
SECTION 1. SHORT TITLE.
This Act may be cited as the “Property Protection. Act of
2000”.
SEC.
2 PROTECTION
OF
UNITED
STATES
CITIZENS
AGAINST
EXPROPRIATION
BY
NICARAGUA

(a) BILATERAR ASSISTANCE.....(1) IN GENERAL—
Notwithstanding section 527 (g) of Foreign Relations
Authorization Act, Fiscal Years 1994 and 1995, assistance
under the Foreign Assistance Act of 1961 or the Arms
Export Control Act for fiscal year 2001 or 2002 may only
be provided to the Government of Republic of Nicaragua if
the President first makes a certification under subsection
(d) for the fiscal year involved.
(2) EXCEPTION.- For purposes of paragraph (1), the
term “assistance under the Foreign Assistance Act of
1961” shall not include—

53a
(A) assistance under chapter 1 or chapter 10 of part I of
such Act for child survival, basic education, assistance to
combat tropical and other diseases, and related activities;
(B) assistance under section 481 of such Act (relating to
international narcotics control assistance); and
(C) assistance under chapter 9 of part I of such Act
(relating to international disaster assistance).
(b) MULTILATERAL ASSISTANCE
(1) IN GENERAL—The president shall instruct the
United States Executive Director at each multilateral
development bank and international financial institution
to which the United States is a member to use the voice,
vote and influence of the United States to oppose any loan
or other utilization of the funds of such bank or
institution for the benefit of the Republic of Nicaragua for
fiscal year 2001 or 2002 unless the President first makes
a certification under subsection (d) for the fiscal year
involved.
(2) EXCEPTION—Paragraph (1) shall not apply with
respect to assistance that is directed specifically to
programs which serve the basic human need of the
citizens of Nicaragua.
(c) REPORT—NOT Later than September 1, 2000, or the
date of the enactment of this Act (whichever occurs later)
and not later than September 1, 2001, the President shall
prepare and transmit to congress a detailed report listing
the 50 most urgent property claims by United States
citizens against the Government of the Republic of
Nicaragua which shall include, but not be limited to, all
property claims in which Nicaragua courts have ruled in
favor of United States citizens, and property claims by
United States citizens involving Public Sector National
Corporations (CORNAP).
(d) Certification
under this subsection is certification
to the congress that the Government of the Republic of
Nicaragua has returned the nationalized or expropriated
property of each United States citizen who has a formally -

54a
document claim against the Government of Nicaragua
listed in the report under subsection (c), or has provided
adequate and effective compensation in convertible
foreign
exchange or other mutually acceptable
compensation equivalent to the full value of nationalized
or expropriated property of each United States citizen
who has formally-documented claim against the
Government of Nicaragua listed in the report Under
subsection (c)
115 TH CONGRESS
1st SESSION H.R. 1918
IN THE SENATE OF THE UNITED STATES
OCTOBER 4, 2017
Received” read twice and referred to the Committee of
Foreign Relations
AN ACT
To oppose loans at international financial institutions for
the Government of Nicaragua unless the Government of
Nicaragua is taken effective steps to hold free, fair, and
transparent elections, and for other purposes.
Be it enacted by the senate and House of Representatives
of the United States of America in Congress assembled,
SECTION 1. SHORT TITLE.
This Act may be cited as the “Nicaraguan Investment
Conditionality Act (NICA) of 2017.
SEC.2.FINDINGS.
Congress makes the following finding:
(1) the house committee on Foreign Affairs convened a
congressional hearing on December 1, 2011, entitled
“Democracy held Hostage in Nicaragua: Part 1” where
former United States Ambassador to Nicaragua Robert
Callahan testified, “First, that Daniel Ortega’s candidacy
was illegal illegitimate, and unconstitutional, second, that
the period leading to the elections and elections
themselves were marred by serious fraud; third, that
Daniel Ortega and his Sandinista party have

55a
systematically
undermined
governmental institutions”.

the

country’s

fragile

(2) According to the Organization of American States
(OAS) report on the Nicaraguan 2011 Presidential
elections, the OAS recommended that the government of
Nicaragua take a number of steps to improve its electoral
systems, including accrediting poll watchers to ensure
political parties and civil society are represented to
observe elections, and redesigning the structure of the
Nicaraguan electoral council to allow proper registration
of the electorate.
(3)
On January 25, 2012, a press statement from
Secretary of State HILLARY CLINTON said: ‘As noted by
international observers and Nicaraguan civil society
groups, Nicaragua’s recent elections were not conducted
in a transparent and impartial manner, and the entire
electoral process was marred by significant irregularities.
The election marked a setback to democracy in Nicaragua
and undermined the ability of Nicaraguans to hold their
government accountable.”.
(4) According to the Department of State’s 2015 fiscal
Transparency Report: “Nicaragua’s fiscal transparency
would be improve by including all off-budget revenue and
expenditure in the budget, auditing state-owned
enterprises, and conducting a full audit of the
government’s annual financial statements and marking
audit reports publicly available within reasonable period
of time”.
(5) According to the Department of State’s Country
Report on Human Rights Practices for 2015; “In 2011 the
supreme Electoral Council (CSE) announced the reelection of President Daniel Ortega Saavedra of the
Sandinista
National Liberation Front
(FSLN) in
elections that international and domestic observers
characterized as seriously flawed. International and
domestic organizations raised concerns regarding the
constitutional legitimacy of Ortega’s re-election. The 2011
elections power and the elimination also provided the
ruling party with a supermajority in the National
Assembly, allowing for changes in the constitution,

56a
including the reach of executive branch power and the
elimination of restrictions on re-election for executive
branch officials and mayors. Observers noted serious
flaws during the 2012 municipal election and march 2014
regional election”. (6) According to the Department of
State’s Country Reports on Human Rights Practices for
2015 in Nicaragua: “The principal human rights abuses
were restrictions on citizen’ right to vote; obstacles to
freedom of speech and press, including government
intimidation and harassment of journalists and
independent media, as well as increased restriction of
access to public information, including national statistics
from public offices, and increased government harassment
and intimidation of nongovernmental organizations”
(7) The same 2015 report stated: “Additional significant
human right abuses included considerably biased polices
to promote single-party dominance; arbitrary police arrest
and detention of suspects, including abuse during
detention; discrimination against ethnic minorities and
indigenous persons and communities.
(8)On June 7, 2016, the Department of State’s Bureau of
Democracy, Human Rights and labor posted on social
media: “Disappointed government of Nicaragua said it
will deny electoral observers requested by Nicaraguan
citizens, church, and private sector k k rk We continue to
encourage the government of Nicaragua to allow electoral
observers as requested by Nicaraguans.”
(9) On June 14, 2016, President Ortega expelled three
Unite State Government officials (two officials from U.S
Customs and Border Professor from the National Defense
University) from Nicaragua.
(10) On August 1, 2016, the Department of State issued a
press release to express grave concern over the
Nicaraguan government limiting democratic space
leading up to the election in November and stated that
“[o]n June 8, the Nicaraguan supreme Court stripped the
opposition Independent Liberal Party (PLI) from its long
recognized leader. The Supreme Court took similar action
on June 17 when it invalidated the leadership of the
citizen Action Party, the only remaining opposition party
with the legal standing to present a presidential
candidate Most recently, on June 29, the Supreme

57a
Electoral council removed 28 PLI national assembly
members (16 seated and 12 alternates) from their
popularly-elected position.”
(11) On November 7, 2016, the department of State issued
a press release stating: “The United States is deeply
concerned by the flawed presidential and legislative
electoral process in Nicaragua, which
precluded
possibility of a fee and-fair election on November 6. In
advance of election, the Nicaraguan government sideline
opposition candidates for president, limited domestic
observation at the polls and access to voting credentials,
and took other actions to deny democratic space in the
process. The decision by the Nicaraguan government not
to invite independent international electoral observers
further degraded the legitimacy of the election.”
(12) In November and December of 2016, the Board of
Executive Directors of the inter-American.
Development Bank postponed consideration of a policy
based loan of $ 65 million to the government of Nicaragua
due to the efforts of the United State mission that
expressed serious concerns of the absence
of
transparency, systemic corruption, and the lack of free
and fair election in Nicaragua.
(13) According to the department of State’s Country
Reports on Human Rights Practices for 2016: “[ AJction by
the ruling Sandinista National Liberation Front (FSLN)
party, with an authoritarian executive branch exercising
significant control over the legislative, judicial, and
electoral functions.”
(14) According to the department of state’s Country
Reports on Human Rights Practices for 2016 in
Nicaragua, “The November 6 election for president, vice
president,
national
assembly
members,
and
representatives for the Central American parliament did
not meet the conditions of being free and fair * * * The
November 6 presidential and legislative elections were
marred by allegations of institutional fraud and the
absence of independent opposition political parties.
National observers and opposition leaders claimed rates
of abstention from 60 to 70 percent.”
(15) According to the Department of State’s Country
Reports on Human Practices for 2016: “Companies

58a
reported that bribery of public officials, unlawful seizures,
and arbitrary assessments by customs and tax authorities
were common* * * The courts remained particularly
susceptible to bribes, manipulation, and other forms of
corruption, especially by the FSLN, giving the sense that
the FSLN heavily influenced CSJ and lower-lever court
actions.”.
SEC 3 STATEMENT OF POLICY.
(1) It is the policy of Unite State to support......
The rule of law and independent judiciary and electoral
council in Nicaragua;
(2)Independent
pro-democracy
organizations
in
Nicaragua;
3) Free, fair, and transparent election under international
and domestic observers in Nicaragua; and
(4) Anti-corruption and transparency efforts in Nicaragua.
SEC.4. INTERNATIONAL FINANCIAL INSTITUTIONS,
(a) IN GENERAL-The President shall instruct the
United State Executive Director at each international
financial institution to use the voice, vote, and influence
of the United States to oppose any loan for the benefit of
the Government of Nicaragua, other than to address basic
human needs or promote democracy, unless the Secretary
of State certifies and reports to the appropriate
congressional committees that the Government of
Nicaragua is taking effective steps to—
Hold free, fair, and transparent elections overseen by
credible domestic and international electoral observers;
Promote democracy, as well as an independent judicial
system and electoral council;
Strengthen rule of law;
Respect the right to freedom of association and
expression;
Combat
corruption,
including
investigating
and
prosecuting government officials that are credibly alleged
to be corrupt; and
Protect the right of political opposition parties, journalist,
trade unionists, human right defenders, and other civil
society activists to operate without interference.

59a
(b) REPORT......Not later than 180 days after date of the
enactment of this Act, the secretary of the treasury shall
submit to the appropriate congressional committees a
written report assessing
The effectiveness of the international financial
institutions in enforcing applicable program safeguards in
Nicaragua; and
The effects of the matters described in section 2 on long­
term prospects for positive development outcomes in
Nicaragua.
(c) DEFINITION.—-in this section:
APPPROPRIATE CONGRESSONAL COMMITEES—The
term “appropriate congressional committees.” Means......
(A) the committee of Foreign Affair, the committee on
Appropriations, and the committee on financial services of
the House of representatives; and
The committee on foreign relations, the committee on
Appropriations, and the Committee on banking, Housing,
and Urban Affairs of the senate.
INTERNATIONAL FINANCIAL INSTITUTION— The
term “international financial institution” means the
International Monetary Fund,
International Bank for Reconstruction and Development,
European Bank for Reconstruction and Development,
International Development Association, International
Finance Corporation, Multilateral Investment Guarantee
Agency, African Development
Bank, Inter-American Development Bank, Bank for
Economic Cooperation and development in the Middle
East and North Africa, and Inter-American Investment
Corporation.
(d) TERMINATION—-This section shall terminate on the
day after the earlier of—(1) the date on which the secretary of State certifies and
reports to the appropriate congressional committees that
the requirements of subsection (a) are met; or
(2) 5 years after the date of the enactment of this Act.
(e)WAIVER—-The President may waive this section if the
president determines that such a waiver is in the national
interest of the United State.
SEC.5 ORGANIZATION OF AMERICA STATE.
The president shall direct the United State Permanent

60a
Representative to the OAS to use the voice, vote, and
influence of the United States at the OAS to strongly
advocate for an Electoral Observation Mission to be sent
to Nicaragua in 2017 to observe the possibility of credible
election.
SEC.6. SENSE OF CONGRESS
The Department of State and the United States Agency
for International Development should prioritize foreign
assistance to the people of Nicaragua to assist civil society
in democracy and governance programs, including human
right documentation.
SEC. 7. REPORT ON CORRUPTION IN NICARAGUA.
(a) REPORT REQUIREMENT—-Not later than 90 days
after the date of the enactment of this Act, the Secretary
of State, in consultation with the intelligence community
(as defined in section 3(4) of the National Security Act of
1947 (50 U.S.C 3003(4), shall submit to congress a report
on involvement of senior Nicaraguan government officials,
including members of the supreme Electoral council, the
national Assembly and the judicial system, in acts of
public corruption or human right violation in Nicaragua.
(b) Form—The report required in subsection (a) shall be
submitted in unclassified form, but may contain.
a classified annex. The unclassified portion of the report
shal be made available to the public.
Passed the House of Representative October 3, 2017.
Attest:
KAREN L. HAAS,

61a
CONGRESS OF THE UNITED STATES WASHINGTON,
DC 20315
December 01, 2017
The President
The White House
Dear Mr. President
We appreciate your commitment to implementing the
Global Manitsky Human rights Accontability Act (“The
Global Magnitsky Act” or “The Act”). As you are aware,
the Act authorizes you to impose visa and asset sanctions
on foreign persons responsible for gross violations of
human rights and government officials or their associates
who have engaged in acts of significant corruption. As
noted in your April 2017 report on the Act, with the
establishment of the Global Magnitsky sanctions
program, “the United States is uniquely positioned to lead
the international community in pursuing accountability
abroad consistent with our values”.
The Golobal Magnitsky Act requires the submission of
reports to Congress with relevant updates to the list of
sanctioned individuals and entities, as well as responses
to Congressional requests for specific sanctions
investigations pursuant to the law. Pursuant to Section
1263 (d) of the national Defense Authorization Act for
Fiscal Year 2017 (P.L. 114-328). we urge you to take
immediate action to determine whether Nicaraguan
nationals Robrto Jose Rivas Reyes and Francisco Lopez
meet the criteria to be sanctioned in accordance with the
law for human rights abuses, corruption, and illicit
activity. We ask you to use the tools available under the
Global Magnitsky Act to reaffirm our unwavering support
for democratic principles in Nicaragua and to stand in
solidarity with the Nicaraguan people in their fight to end
the widespread corruption and human rights abuses
under Daniel Ortega.
In July 2017, we supported the administration’s effort to
sanction National Electoral Council. And we similarly
have serious concerns regarding the actions of the
Electoral Council in Nicaragua Roberto Jose Rivas Reyes
is the President of the Supreme Electoral Council (CSE).
In this capacity. Mr. Rivas has worked alongside Daniel

62a
Ortega for over a decade to deny the Nicaraguan people
free, fair, and transparent elections monitored by
international observers. The following excepts show how a
lack of electoral legitimacy and fraudulent actions by the
CSE leadership have been well documented by the
Department of State:
According to the department of State’s Country Reports
on Human rights Practices for 2015: “In 2011 the
Supreme Electoral Council (CSE) announced the reelection of President Daniel Ortega Saavedra of the
Sandinista National Liberation Front (FSLN) in elections
that international and domestic observers characterized
as seriously flawed. International and domestic
organizations raised concerns regarding the constitutional
legitimacy of Ortega’s re-election. The 2011 elections also
provided the ruling party with a supermajority in the
National Assembly. Allowing for changes in the
constitution, including extending the reach of executive
branch power and the elimination of during the 2012
municipal elections and March 2014 regional elections.”
On November 7, 2016, the Department of State issued a
press release stating: The United States is deeply
concerned by the flawed presidential and legislative
electoral process in Nicaragua, which precluded the
possibility of a free and fair election on November 6. In
advance of the elections, the Nicaraguan government
sidelined opposition candidates for president, limited
domestic observation at the polls and access to voting
credentials, and took other actions to deny democratic
space in the process. The decision by the
Nicaraguan government not to invite independent
international electoral observers further degraded the
legitimacy of the election.”
According to the Department of State’s Country Reports
on Human Rights Practices for 2016: “(A)ctions by the
ruling Sandinista National Liberatin Front (FSLN) party
resulted in the facto concentration of power in a single
party, with an authoritarian executive branch exercising
significant control over the legislative, judicial, and

63a
electoral functions. “The report continues and also states:
“The November 6 elections for president, vice president,
national assembly members, and representatives for the
Central American Parliament did no meet the conditions
of being free an fair...The November 6 presidential and
legislative elections were marred by allegations of
institutional fraud and the absence of independent
opposition political parties. National observers and
opposition leaders claimed rates of abstention from 60 to
70 percent.”
In addition to accusations of electoral fraud and of
particular importance to the designations under the
Global Magnitsky Human Rights Accountability Act,
Roberto Rivas has also been accused of corruption.
Concerns regarding how Mr. Rivas gained his fortune
while only making $5,000 a month, according to
Confidential. Have led various media outlets to
investigative his assets:
On September 22nd. 2011 Rivas was accused of “illicit
enrichment” by a group called, Grupo de Ciudadanos y
Abogados Democraticos. According to a Confidential
Article release on the same day, the group accuses Rivas
of increasing his assets “in a exorbitant way and without
any justification.” The accusation reads that “through four
corporations” Mr. Rivas has gained “valuable assets in a
dubious, irregular and unlawful’ manner. “Gustavo
Garcia, one of the accusers, told prosecutor Armando
Juarez that this investigation could lead to a discovery of
money laundering.
According to a La Prensa article released on September
21th, 2014 and the previously mentioned Confidecial
article. Mr. Rivas owns a variety of houses, mansions, jets
planes and an island. The articles list him owning a
condominium valued at over $6 million dollars in Costa
Rica, an islet in front of El Diamante Shipyard in
Granada, a summer house in Hermosa Beach, a mansion
valued ove $1 million in Costa Rica, a house in San Juan
del Sur Valued in $715,000, and two private planes
valued at $2.3 million
Nest, we firmly believe that Petroleos de Venezuela’s
(PDVSA) subsidiary in Nicaragua, knows as ALBANISA,

64a
should receive scrutiny from our law enforcement and
Treasury Department officials. Earlier this year, U.S.
embassy officials helped arrange for OFAC to brief the
Nicaraguan business community because PDVSA’S
subsidiary in Nicaragua, ALBANISA, does a significant
amount of business with Nicaraguan businesses. With
that in mind, we believe that Francisco Lopez, VicePresident of ALBANISA, should be considered for
designation as well under the Global Magnitsky Human
Rights Accountability Act.
According to the Department of State’s 2017 Fiscal
Transparency Report: “The government has not publicly
accounted for the expenditure of significant off-budget
assistance from Venezuela and this assistance has not
been subject to audit or legislative oversight. Allocations
to and earnings from state-owned enterprises were
included in the budget on a net basis, but most stateowned enterprises, including ALBANISA, have not been
subject to audit
Francisco Lopez is accused of profiting from loans he
signed off on. The following media excerpts focus on Mr.
Lopez’s problematic stewardship as head of ALBANISA.
According to a Confidencial article published on January
1st, 2013. Mr. Lopez used his power to grant an almost $1
million contract to his own family-owned. Tecnoligia y
Sistemas S.A. (Tecnosa, by its designation in
Spanish). The ckeck was given as a “deposit” for a social
program, Calles para el pueblo. However, after
investigating the project, there was little information
found. In fact, no municipalities were listed and while
asking, none of the municipalities had even heard of
Tecnosa.
Confidential also states that the check signed by Mr.
Lopez cited in the article, is half of the almost $1 million
contract that comes from the “Venezuelan state
cooperation that has been privatized.”

65a
Plaza publicca published information similar to that
contained in the Confidencial report on January 28th,
2013, but added that Tecnosa benefited under the Ortega
government by receiving tax exemptions and loans from
another Nicaraguan agency under scrutiny, Instituto de
seguridad Social, for the same project named above.
We must not allow for human rights abusers and corrupt
officials to continue violating the rights of the people
without consequence in Nicaragua. It should also be noted
that Nicaragua has very few investigative journalist and
independent media is highly censured by the Nicaraguan
government, limiting the ability of local sources to further
investigative these and other corrupt actors.
Therefore, we urge the Department of State and the
Department of Treasury, working with other relevant
Executive Branch agencies, to promptly investigate
Roberto Jose Rivas Reyes and Francisco Lopez, and, if
merited, to sanction them as authorized in the Global
Magnitsky Act. This action by the United States would
send a powerful message to Daniel Ortega and the
Nicaraguan people. We look forward to your response and
a continued dialogue with you to support the robust
implementation of the Global Magnistky Act.
Sincerely,
SIGNED BY; ILEANA ROS-LEHTINEN
Chariman Emeritus House Foreign Affairs Committee;
Ted Cruz Chairman Subcommittee on Oversight. Agency
Action, Federal Rights and Federal Courts Senate
Committee on the Judiciary; EDWARD ROYCE
Chairman House Foreign Affairs Committee; ALBIO
SIRES, Ranking Member subcommittee on the Western
Hemisphere House Foreign Affairs Committee; BILL
NELSON Ranking Member Senate Committee on
Commerce, Science & Transportation; ELIOT L. ENGEL
Ranking member House Foreign Affairs Committed;
MARCO RUBIO Chairman Subcommittee on Western
Hemisphere, Transnational Crime, Civilian Security,
Democracy, Human Rights, and Global Women’s Issues
Senate Committee on Foreign Relations; COL. PAUL
COOK RET Chairman Subcommittee on the Western
Hemisphere House Foreign Affairs committee; ROBERT
MENENDEZ Ranking Member, subcommittee on
Western Hemisphere, Transnational Crime, Civilian

66a
Security, Democracy, Human rights, and Global Women’s
Issues Senate Committee on Foreign Relations; DEBBIE
WASSERMAN SCHULTZ, Ranking Member, Military
Construction, Veterans Affairs. House and Related
Agencies
Subcommittee,
House
Committee
on
Appropriation.

67a

APPENDIX I
TRANSLATION OF ARTICLE 2372 OF THE
NICARAGUAN CIVIL CODE
SPANISH
Arto 2372. Son de Ningun valor los actos de cartulacion
autorizados por un Notario o funcioario publico en asunto
en que el, su conyuge o sus parientes dentro del cuarto
grado de consanguinidad o segundo de afinidad, fueren
personalmente interesados: pero si “los interesados” lo
fueren solo por “tener parte en sociedades anonimas,” o
“ser gerentes” o “directores de ellas,” “el acto sera valido,”
lo mismo que cuando todos los interesados fueren
parientes del cartulario dentro de dichos grados, y el no
tenga en el acto interes alguno. Artos. 3188 C.; XVIII Tit.
Prel. C.; 43 no 4 Ley del Notariado.
ENGLISH
Article 2372. The Act of notarization would be invalid
only when a Notary or a public officer authorized it for
himself or herself or the act of notarization es executed for
one of the spouses or some family member up to the
fourth grade of consanguinity or second of affinity; but if
the family member or relatives of the notary is requesting
the notarization because he or she has an “interest in the
corporation” or is “part of a corporation” or “is an agent” of
or “director of the corporation,” the notarization or act
would be valid despite the fact that the person or persons
requesting the notarization are family members or are
relatives on the aforementioned degrees of consanguinity,
as long as the Notary himself or herself has no interest in
the act being notarized, (emphasis added).
EXHIBIT JJ
EXCERPTS OF THE NICARAGUA CIVIL CODE
Arto. 888.- The necessary possession to prescribe must be:
1. Founded in just title.
2. In good faith
3. Peaceful.
4. Continue

68a
5. Public
Arto. 889- Defines “Just Title” “It is considered a Just
title for the prescription, which, being a transfer of
ownership, contains some circumstance that makes it an
ineffective conveyance, transfer or sale.” (emphasis
added).
Arto. 897.- (Nicaraguan Civil Code) Adverse Possession
“To adquire ownership of the real estate, or any real right
over them by prescription, a possession of ten years is
needed. The right to own is prescribed by the possession
of ten years is needed. The right to own is prescribed by
the possession of one year”
MANUAL OF THE MAYOR
CHAPTER IV
POWERS OF THE MAYOR
4.1 GENERALITIES
2c. Collection of Funds Role: To meet the goal of income
that has been foreseeable also in the municipal budget,
the mayor has to comply with the Role of collecting local
taxes, rates, and contributions.
2d. Chief of Personnel: The Mayor, as a matter of law, is
responsible for the hiring and firing of the personnel in
compliance with the Municipality of the Mayor.
2f. Municipality Legal Representation: The Mayor is the
attorney in fact and has the general power of attorney to
make decisions on behalf of the municipality legally and
to enter and execute or celebrate contracts.
2g. Administrative Role: The public appeal to the mayor
to revise local administrative acts.
4. The roles and functions are limited to those
previously mentioned above, but there are those
that need to be added that other laws vests on the
Mayor. The laws might vest other functions as a
result of the Mayor’s high administrative role,
facilitated by the popular vote. Among other laws
we mentioned the General Health Law and the law
of promoting the youth. In the next chapter or
subsequently we will provide more details.

69a
Article. 617. (Nicaraguan Civil Code) -No one can be
deprived of property except by virtue of a law or a
sentence based on it. Expropriation for reasons of public
utility must be qualified by law or by a judgment based on
it; and will not be verified without prior compensation. In
case of war, it is not essential that the compensation be
prior. If they do not precede those requirements, the
judges will protect, and in their case, reinstate the
expropriated in possession.
Artos. 2531 No. 1 C.; 57 Cn. Bj. 280-728 Cons. 11-820 cons.
IV-1795-1903-2505 Cons. 11-5119-69559660
The nullity and rescission
Article.2201.-(Nicaraguan Civil Code). There is absolute
nullity in acts or contracts:
1.When any of the essential conditions for their formation
or for their existence are missing
2.When there is a requirement or formality that the law
requires for the value of certain acts or contracts,
considering the nature of the act or contract and not the
quality or status of the person who intervenes in them.
3.When they are executed or celebrated by absolutely
incapable people.
Article 2372. Nicaraguan Civil Code. Notarial acts
recorded by a Notary Public or civil servant in a matter in
which he, his spouse, or his relatives within the fourth
degree of consanguinity or second degree of affinity have a
pessonal interest are null and void. However, if the
parties are interested parties solely because they possess
a holding in corporations, or are managers or directors of
the same, the act will be valid, as it will if all the
interested parties are relatives of the notary public within
said degrees, and he does not have any interest in the act.
Article 2381 of the Nicaraguan Civil Code reads:
“When a public instrument has a defect in form not
resulting from the incompetent notary, said public
instrument should have the legal effect of a known
private document. Articles 2481 C.; 1170 Pr.”
Article 2447 NICARAGUAN CIVIL CODE. There is no

70a
contract unless the following requirements take place: 1.
The parties consent.
5. The subject of the contract actually exists.
6. Articles 1832, 1833, 2436 C.; B.J. pag. 986 Cons.
II.):
Arto 2472. NICARAGUAN CIVIL CODE. Every person is
legally capable. They are incapable in accordance with
articles y and 8 of this Code, absolutely, the insane, the
imbecile and the deaf-mute that
can not be given or understood in writing or otherwise
clear or indubitable. Articles. 299 Inc. 3ro, 330, 345, 346,
347, 359, 944, 1833, 2204, 2252, 2367 C.
Their acts do not produce or even natural obligations and
do no admit caution. Relatively incapable minor adults
who have not obtained the declaration of majors, and
those who are under interdiction to administer theirs, by
executory sentence. Their acts may have value in certain
circumstances and under certain respects determined by
law Articles. 8, 9, 244, 245, 248, 249, 277, 363, 366, 369,
1169, 1840, inc. 1st, 2205, 2205, 2564, 2565, 3208, 3456,
3457, 3504, 3798 C.; 54 Pn.
Article 2483. Nicaraguan civil code. The following must be
recorded in a notarial instrument: 1) Transactions and
contracts intended to crate, transfer, modify, or terminate
rights in rem over real property.
2)Leases of the same property for four or more years.
3)Prenuptial agreements made by the spouses before or
after celebration of the marriage, as well as any
modifications that they wish to make to said agreements.
4. Assignment, repudiation and renunciation of
inheritance rights or of the husband and wife’s
community property, if any. Inheritance rights may also
be repudiated and renounced in a legal action by means of
a document that will be presented to the Judge who will
add it to the record of the case and notify the interested
parties.
5) Powers of attorney to marry, as provided in the
respective agreement, general powers of attorney for
litigation, and the special powers of attorney that must be
submitted in written proceedings; powers of attorney to
administer property and any others whose subject matter

71a
is a transaction that is set forth or that ought to be set
forth in a notarial instrument or that will harm a third
party.
6) The assignment of shares of stock or of rights arising
out of a transaction set forth in a notarial instrument.
7. The assignment of litigious rights, in the manner
prescribed in the relevant Chapter.
All other contracts in which the amount of the
consideration given by one or both contracting parties
exceeds one hundred pesos must also be set forth in
writing, including in a private document.
Arto. 2598.-Nicaraguan Civil Code. Whenever a public
deed of sale and purchase is declared null and void by the
excecuting court, without the buyer’s request, the seller
can not sell the thing sold, but must formalize the sale or
refund the price to the buyer at the option of the buyer,
which will use its right within six months from the time it
becomes aware of the sentence, and after this time may
only require the seller to return the price, within the
period of the ordinary prescription, and in the
improvements will be at general disposition.
Section 28. Nicaraguan Notarial law. The Notary must
inform the interested parties of the value and legal
significance of any specific waivers that they make, or of
any clauses involving implicit stipulations or waivers. The
Notary shall not proceed to issue an instrument when the
parties do not have sufficient legal capacity to assume
obligations or are not duly authorized for such purpose,
subject to penalty of nullity. They are also prohibited from
executing any instrument without the presence of the
parties or their counsel of record (procurator) or legal
representative, subject to the same penalty. All types of
power of attorney documents must specify any special
powers that the principal grants to the attorney-in -fact,
and it is not lawful, subject to penalty of nullity, to cite
only the article or articles of the Code that contains them.
NICARAGUAN CIVIL CODE OF PROCEDURE
Article. 1167.- To make use of the private document
created by the Article 2380 C. (Nicaraguan Civil Code),
the recognition of the respective signature will be done

I

’

72a
having in view the protocol of the cartulary, and always in
the office of this one or in which their protocols are leglly
stored, as the case may be. The Official before whom the
recognition is requested, will draw up the style report,
copying the document and the signatures that cover it
completely. This will be enough to have full recognition.
In the case of the notarized recognition and the party did
not appear after the second citation in his case, the officer
will be transported at the next hearing, stating the reason
for that circumstance, the Notary’s office; he will copy the
deed and signatures in the proceedings, and will
pronounce it immediately. The corresponding resolution.
Article. 1170.- NICARAGUAN CIVIL CODE. To make
use in trial, in diligence prejudicial, or otherwise, of the
private document recognized created by the Arto. 2381 C.,
it will suffice to show the corresponding testimony of the
deed.
Article. 1684.- NICARAGUAN CIVIL CODE OF
PROCEDURE.
EXECUTIVE JUDGMENT is one in which a creditor with
a legal title pursues his delinquent debtor, or in which the
performance of an act is requested by an instrument that,
according to the law, has sufficient force for the purpose.
The procedure for executing the sentences is not that of
the executive judgment, but that which is established in
Book I of this Code; but, in the cases not foreseen in said
Book 1, the rules of the executive judgment will be
applied, omitting the opposition of the executed one, the
term of proof and the sentence of payment or auction.
Articles. 509-934-1693-1695-Pr.; B.J. 1331-1730-57556139-6305-6871-7175

